              THE UTILIZATION AND QUALITY CONTROL

            PEER REVIEW ORGANIZATION (PRO) PROGRA:
            AN EXPLORATION OF PROGRA EFFECTIVENESS




RICHAD P.   KUSSEROW
INSPECTOR GENERAL                                JANARY 1989
CONTROL # OAI-Ol-88-00572

                            TABLE OF CONTENTS


EXECUTIVE SUMRY
INTRODUCTION. . 

PRO DESCRIPTIVE DATA.
LIST OF ABBREVIATIONS


FINDINGS. .
PRO-RELATED FINDINGS. 


     Most respondents regarded the PROs as at least

     moderately effective in carrying out their mission

     Many respondents noted that the PROs' effectiveness

     is hampered by both internal and external constraints. 

     Respondents reflected considerable consensus regarding

     the PROs' most and least useful HCFA-defined   activities.
     The PROs reported somewhat more effective relationships

     wi th their Medicare fiscal intermediaries than with

     their Medicare carriers. 


     There has been considerable variation among the PROs in

     the degree to which their review decisions have con­

     curred with those of Super PRO. . 


HCFA-RELATED FINDINGS

     There has been significant improvement in HCFA' s
     management and administration of the PRO program

     during the second contract     period.
     The HCFA'   s abil i ty to
                           assess PRO performance has been
     limi ted bythe lack of refinement and integration of
     its evaluation tools


     The HCFA appears to have given the PROs insufficient

     information on its criteria for making contract

     renewal decisions. 

     The use of 2- year , fixed- price contracts appears to
     have created inefficiencies in the PRO program

     The HCFA' s second scope of work has been highly

     prescriptive and appears to have provided insufficient

     incentives for PRO initiative                           . 23


     The dynamism and broad scope of the PRO program have

     impaired HCFA' s ability to manage the program. 

RECOMMENDA TI ON S

APPENDIX I
      ENDNOTES

APPENDIX II
     BACKGROUND OF THE PRO INSPECTION

APPENDIX III
     BACKGROUND OF THE PRO PROGRA.                               . 37

APPENDIX IV
      CHART OF PRO ACTIVITIES.                                   . 47

APPENDIX V
     COMPARISON OF 1984 SCOPE OF WORK TO
       1986 SCOPE OF WORK                                        . 48

APPENDIX VI
     SUMRY OF        RECENT PRO-RELATED LEGISLATIVE PROVISIONS   . 50

APPENDIX VII
     SUMMRY OF PRO-RELATED STUDIES
APPENDIX VIII
     THE PROS WITH MORE THAN . ONE CONTRACT
APPENDIX IX
     MEMORABLE " PRO- ISMS"

APPENDIX X
     TABLES 1-4                                          0 .
APPENDIX XI
     METHODOLOGICAL NOTES                                        . 64

APPENDIX XII
     COMMENTS ON THE DRAFT REPORT AND OIG RESPONSES TO THE
     COMMENTS                                                    . 69
                          EXECUTIVE SUMY
PURPOSE AND OBJECTIVES:
This is the third and final inspection report in a series

assessing the performance of the utilization and Quality Control

Peer Review Organization (PRO) program. The purpose of this PRO

inspection is to promote a better understanding of the PROs'
mission and activities. This final report offers an exploration

of the overall effectiveness of the PRO program , focusing on an

assessment of both the PROs themselves and on the Health Care

Financing Administration'  (HCFA) oversight of them.


METHODOLOGY:

The inspection grew out of the Inspector General' s desire to

obtain a broad perspective . on the PROs' performance during their
second contract period (1986-88). To that. end , we pursued three
primary lines of inquiry:    (1) interviews with 211 individ als
associated with the PRO program , including all the PRO Chief

Executive Officers (CEOs) and representatives of other

Government, provider, and consumer groups associated with the

PROs (2) site visits to 12 PROs selected for case study, and
(3) review of pertinent literature and data bases.

MAOR FINDINGS:
PRO-RELATED FINDINGS

MOST RESPONDENTS REGARDED THE PROs AS AT LEAST MODERATELY

EFFECTIVE IN CARYING OUT THEIR MISSION. The vast maj ori ty
(83 percent) of respondents reported favorably on the PROs'
effectiveness. The highest ratings came from the PRO CEOs

congressional staff, and hospital association representatives.
Three of the 12 case study sites received consistently high

effectiveness ratings. They differed in sizes and geographic

locations but shared several characteristics , including high

staff morale , relatively strong sanction referral records

relatively visible board chairmen and CEOs and strong

communication links with external  entities.
THE PROs REPORTED SOMEWHT MORE EFFECTIVE RELATIONSHIPS WITH
THEIR MEDICARE FISCAL INTERMEDIARIES (FIs) THA WITH THEIR
MEDICARE CARRIERS. Ninety-one percent of the PROs reported at

least moderately effective relationships with their fiscal

intermediaries and 70 percent reported similar levels of

effectiveness with their  carriers.  Despite generally close
working relationships between PROs and their FIs, some PRO and

HCFA staff noted concerns about FIs failing to make timely

paYment adj ustments based on the PROs' DRG de"terminations. Such

concerns have been supported by a recent Office of Inspector

General (OIG) audit which found that as of July 1987
approximately 54 000 claims adjustments totaling about $51

million remained unprocessed by the  FIs.   In addition, - although
the PROs have had rather limited interactions with their

carriers , the need for stronger PRO , FI, and carrier coordination
will increase as the PROs begin to review in non-hospital

settings.
THE PROs VARY IN THE DEGREE TO WHICH THEIR REVIEW DECISIONS

CONCUR WITH THOSE OF SUPERPRO. Because no acceptable range of
disagreement between the PROs and SuperPRO has been established

and no national trend analysis of variation among quality

problems identified has been undertaken, it is impossible to

assess a particular PRO' s performance based on SuperPRO data.
However, our analysis of PRO/SuperPRO variations wi thin the PROs

second contract period reflected strong differences between PRO

and SuperPRO determinations, with the . exception of premature
discharges, where both groups identified relatively few problems.
Furthermore, comparison of PRO/SuperPRO differences wi thin the

first and second contract periods reflected that the PROs ' use of

generic quality screens appears to have had no effect in

narrowing the margin of difference between PRO and SuperPRO

determinations related to the identification of quality problems

or the appropriate referral of cases to physician reviewers.
HCFA-RELATED FINDINGS
THERE HAS BEEN SIGNIFICANT IMPROVEMENT IN HCFA' S MAAGEMENT AND

ADMINISTRATION OF THE PRO PROGRA DURING THE SECOND CONTRACT
PERIOD. Despite the problems enumerated in other findings of
this report , HCFA has made important strides in improving the PRO

program, as reflected in part by the fact that a majority of all

respondents considered HCFA' s management of the program at least
 moderately effective" and noted an improvement in that oversight

since the start of the program. Our interviews and review of
HCFA materials confirm that HCFA has taken important steps to

improve the program, particularly by broadening its communication

efforts with both the PRO and external entity communi ties.
THE HCFA' S ABILITY TO ASSESS PRO PERFORMCE HAS BEEN LIMITED BY
THE LACK OF REFINEMENT AND INTEGRATION OF ITS EVALUATION TOOLS.
Although we had hoped to assess PRO effectiveness by

supplementing our interview- generated information with HCFA

evaluation data, the inherent limitations of HCFA' s evaluation

tools made such analysis impossible. As currently structured

these tools have not been sufficiently integrated into a

comprehensive, coordinated system for evaluating the PROs'
performance. Our interviews and review of HCFA documents

revealed both individual and collective problems with HCFA' 

three evaluation tools--the PRO Monitoring Protocol and Tracking

System (PROMPTS-2), SuperPRO , and the PROs' ongoing data-
reporting requirements.

     The PROMPTS-2 has focused much more on process than outcome

     evaluation of the PROs and its format has failed to capture

     gradations in PRO performance.
     The SuperPRO process appears duplicative of the medical

     review component of PROMPTS-2 , and most respondents

     including a number of HCFA regional office staff, noted

     uncertainty about how HCFA has used SuperPRO   data.
     addition, many PRO respondents complained about their lack

     of contact with SuperPRO reviewers and SuperPRO' s limited

     use of local reviewers.
     The PROs' ongoing reporting requirements have been

     cumbersome and complex , involving 23 separate reports , 90

     percent of which must be submitted on a monthly or quarterly

     basis.  Furthermore, in-depth data analysis has been
     limited.  However, HCFA has recently taken steps to
     strengthen its data analysis capability and is planning to

     contract cycle. 

     reduce the PROs' reporting requirements in the third


THE HCFA APPEARS TO HAVE GIVEN THE PROS INSUFFICIENT INFORMTION
ON ITS CRITERIA FOR MAKING CONTRACT RENEWAL DECISIONS.
Respondents cited a wide range of activities as most important to

HCFA' s evaluation of the PROs. Al though the PROs' second scope
of work requirements reflected greater emphasis on activities

related to quality review , only 30 percent of all respondents

cited such activities when asked to identify what HCFA has

considered most important in evaluating PRO performance.

Furthermore, wi thin HCFA' s scoring system for the PROs' second
PROMPTS-2 evaluation , the numerical weights assigned to specific

activities do not appear to be consistent with the relative

importance of those activities within the second contract period.

THE USE OF 2-YEAR , FIXED-PRICE CONTRACTS APPEARS TO HAVE CREATED

INEFFICIENCIES IN THE PRO PROGRA. Seventy-eight percent of all
respondents thought that the 2- year length of the PROs' contracts

has been too short, especially given the ever-increasing

responsibilities of the PROs. The short contract period has
given the PROs little time for operational stability between

contract renewal cycles and has hampered HCFA' s planning and

evaluation efforts. Therefore, we support the recent Onmibus

Budget Reconciliation Act of 1987 (OBRA 1987) provision that

lengthens the PRO contract period to 3 years and allows greater

spacing between termination dates for the 54 PRO contracts.


Although fewer respondents directly noted the inefficiencies of

fixed- price contracts , many complained about the delays inherent
in HCFA' s processing the large volume of PRO contract

modifications , which have been a by- product of using fixed- price
contracts for a rapidly changing program. HCFA has taken

important steps to improve the timely processing of contract

modifications and is intending to experiment with alternative

contracting mechanisms for the third contract cycle.

                                iii
THE HCFA' S SECOND SCOPE OF WORK HAS BEEN HIGHLY PRESCRIPTIVE AND
APPEARS TO HAVE PROVIDED INSUFFICIENT INCENTIVES FOR PRO

INITIATIVE. Many respondents criticized the highly detailed menu

of PRO activities prescribed by HCFA, r commending that several

of those activities should be de-emphasized or eliminated from

the PROs ' contract requirements. In determining the PROs ' second
scope of work , HCFA clearly had to balance competing forces for

flexibility and uniformity. The HCFA appears to have developed

the second and third scopes of work without adequate pilot

testing of activities prior to full-scale implementation by all

PROs. . Several respondents also voiced  oncern about the PROs'
current requirement to perform comparable levels of review at all

hospitals regardless of their levels of performance.


THE DYNAMISM AND BROAD SCOPE OF THE PRO PROGRA HAVE IMPAIRED
HCFA'S ABILITY TO MAAGE IT. HCFA has had to implement a

complex, ever-changing program which is of strong interest to

Congress and the professional medical community. The   HCFA'
programmatic work load has included implementation of planning

and evaluation systems , negotiation of 2 basic contracts and

  300 contract modifications for 54 PRO areas , and coordination

with other HCFA and outside entities.   HCFA' s large work load has
been accompanied by frequent staff turnover at both the agency

administration and program management levels.

Such pressures may have inhibited short-term planning, as

reflected by HCFA' s delay in implementing legislative mandates

and by its failure to incorporate policy changes into the PRO

manual in a timely manner. Long-term planning may also have been

compromised as evidenced by the fact that in our interviews and

review of HCFA materials, we saw no indication of HCFA having a

long-range perspective on future directions for the PRO program.

Al though the PROs'responsibilities may have strengthened their
role in protecting the integrity of the Medicare program , severa 1

responden s raised substantial and legitimate concerns that ever-
increasing PRO mandates could precipitate the program' s implosior.

rather than facilitate its improvement.
RECOMMENDATIONS

Al though HCFA has made important strides in the communications,
contracting, and data areas , our findings suggest the need for

HCFA to take the following actions in the areas of evaluation and

planning:
     Improve coordination and integration of its evaluation tools

     (PROMPTS-2 , SuperPRO and PRO data reports) to ensure
     comprehensive assessments of PRO performance. This might

     incl ude 

      synchronizing the PROMPTS-2 review with the due dates

      of SuperPRO reports; and


      incorporating SuperPRO results into the PROMPTS-2

      document along with data from PRO reports to maximize

      the comprehensiveness of the evaluation.

Encourage consistency and objectivity in PRO renewal

decisions by:
      establishing rating standards for PROMPTS-2 and for

      acceptable ranges of variance for SuperPRO;


      formally informing the PROs, regional office staff and

      review panel members of the weights to be assigned

      SuperPRO , HMO/CMP , cost/savings ratio factors; and
      establishing a standing evaluation panel of HCFA

      regional and central office staff to review regional

      recommendations. Participation by PRO staff before
      closed session action would permit discussion of mutual

      questions and concerns.

Re-examine the purpose for and validity of the SuperPRO

review process. This assessment should address such issues

as:
      whether SuperPRO uses appropriate reviewers anq

      criteria to render valid judgments about local PRO

      decisions;
      whether SuperPRO is intended to complement PROMPTS-2

      medical review or to duplicate it;
      whether SuperPRO is intended to validate PROMPTS-2

      review decisions. If so , whether its sample size,
      criteria and record selection process permit valid

      comparison; and

      whether there are better ways to use SuperPRO

      expertise, such as having SuperPRO perform on-site

      review and provide technical assistance to those PROs

      most consistently differing from SuperPRO in their

      review decisions or by having SuperPRO assess what

      types of quality problems that are being identified by

      PROs.
Create forums for SuperPRO, HCFA and PRO discussions.


Examine ways to streamline the SuperPRO process to minimize

the administrative burden on PROs and to maximize its

utili ty to HCFA, such as:
                 . .. ...




     reducing the sample size for small PROs;

     revising the schedule for reporting results to reduce

     time lag between PROMPTS-2 and SuperPRO reviews; and

     facili tating closer interactions between PRO and
     SuperPRO reviewers in resolving PRO/SuperPRO

     differences.
Improve the PROMPTS-2 process by:


     developing standards for judging the manner of PRO

     performance, i. e. ,
                        "Are PRO/provider relationships
     effective      , "Is the PRO successfully tracking
     problems               ; and

     establishing standards for rating " yes/no"
     acceptability of overall activity category based on

     number of " yes/no" ratings of subcategories;
     developing more outcome measures of PRO effectiveness

     through research and demonstrations.


Develop and release comparative PRO performance data to the

PROs and other interested parties.


Develop and distribute requirements, instructions , and

policies in a more timely manner to allow ' sufficient lead-

time for PRO implementation.
Improve the consistency in policy interpretation among PROs

and HCFA staff by updating the PRO Manual on an on- going
basis and by providing training and orientation sessions for

both PROs and regional staff as needed.
Review the current roles of carriers , fiscal intermediaries

and PROs to assess the appropriateness of the current

distribution of responsibilities and assess the coordination

of these entities, such as the timeliness of. F.

adj ustments .
Strengthen long-range planning of future directions and

appropriate roles for the PRO program by:

      increasing the emphasis on research and demonstrations

      in such areas as review methodologies , patient outcome

      and severity measures and data system requirements;


      exploring mechanisms to encourage PRO innovations and

      reduce the prescriptive nature of the current review

      requirements;
          exploring better long-term ways of structuring PROs 

          activities so they are cost-effective and complement

          the efforts of other review entities such as state

         medical licensure boards and hospital qual i ty assurance
          committees. For instance, HCFA might explore the
          possibility of having SuperPRO responsible for making

          DRG determinations and have the PROs focus on quality

          review; and


          establishing an advisory group of PRO and other

          relevant enti ty representatives to provide input to
          HCFA on long-range planning   issues.
COMMENTS ON DRAFT REPORT

We received written comments from the Health Care Financing

Administration (HCFA), the Assistant Secretary for Planning and
Evaluation (ASPE), and the American Hospital Association (AHA)"
The ASPE and AHA raised some questions but were basically

positive about the report.  The HCFA raised significant concerns
about the basis for the findings and about many of the

recommendations. See appendix XII for a complete presentation of
the comments and of our response to them.




                               vii

                           INTRODUCTION


The Office of Inspector General (OIG) recently completed an

inspection of the Utilization and Quality Control Peer Review

Organization (PRO) program. The primary purpose of this broad-
based study was to assess PRO performance and to promote a better

understanding of the PROs' mission and activities. To that end,
the study focused on the following factors:

          the implications of the changes in the PROs' scope of

          work from the first to second contract period;


          the maj or differences in perception among the PROs and

          other entities (e.g., health providers , consumers

          Government officials, public interest advocates)
          regarding the PROs' mission and performance;

          the significant variations that exist among PROs in

          carrying out their scope of work responsibilities;


          the PRO practices that appeared to be exemplary; and


          the potential weaknesses or vulnerabilities of the

          program.
(See appendix II for a more detailed explanation of the back­

ground for th s inspection.


In the course of this OIG inspection of PRO performance, we

conducted in-depth interviews with a wide range of individuals

associated with the PRO program , including all PRO chief execu­

tive officers (CEOs), and a sample of other PRO staff, as well as

national and local external entities. We visited 12 of the 44

PROs who are conducting reviews in 16 of the 54 PRO jurisdic­

tions:  California, Colorado, Florida, Georgia , Indiana , Iowa,
Massachusetts, New York, Oregon, Rhode Island, Texas, and West

Virginia (for the Delaware PRO area). In addition to this
primary data, we collected and analyzed PRO-related performance

data from HCFA and other entities.   (See appendix XI for a more
detailed description of our methodology.


This is the third and final report of a series summarizing the

findings of our study.  The first report focused on the PROs
quality review activities, and the second, on the PROs' sanction

      ties.
acti vi      This final report offers an exploration of the
overall effectiveness of the PRO program, focusing on an

assessment of both the PROs themselves and HCFA' s oversight of
them. It is important to note that our assessment of the PRO

program is based primarily on interviews with a wide variety of

well-informed individuals closely associated with the PROs and

HCFA. Wherever possible, we have supplemented our analysis of
this qualitative data with available quantitative data.
Owing to our time constraints , the limitations of the study

                                   ' activities
design , and the breadth of the PROs            , it is impossible
to draw definitive conclusions about the program' s overall

effectiveness. Nevertheless , if, as one u. s. Senator noted,

 reputation is a proxy for quality,,,l this report should offer
significant indications of the PROs' and HCFA' s performance

during the second contract period.

Our two previous reports included detailed explanations of the

PRO program. To minimize repetition for readers , we have placed

the detailed summary of the PRO program in appendix III of this

report.  Appendix III also includes a more detailed discussion of
HCFA and its tools for evaluating the PROs, as well as an

explanation of the responsibilities of HCFA' s fiscal
intermediaries and carriers and their interaction with the PROs.
A chart of PRO activities during the second scope of work is

included in appendix IV.
                       PRO DESCRIPTIVE DATA


In the course of our study, we learned that the PROs vary

significantly in their structures and functions. The 44 or­
ganizations that have contracted with HCFA to carry out the

requirements of the second scope of work in the 54 areas reflect

the following patterns:


          86 percent conduct all reviews themselves , whereas 

          percent of them subcontract w h other organizations;


          68 percent were previously Professional Standards

          Review Organizations (PSROs);
          84 percent are physician-sponsored and 16 percent are

          physician-access organizations;
          68 percent derive the large majority of their work fro

          Medicare ,whereas 5 percent of them spend less than 50
          percent of their time on Medicare-related activities;

          73 percent reported conducting review activities for

          business entities , and 68 percent of them reported

          contracting with state Medicaid programs;


          approximately 50 percent subcontract for their data

          processing, whereas the others maintain their own

          systems;
          61 percent reported " usually" performing on-site
          review; 20 percent reported " always" performing ' on-site
          rather than off-site review.

In addition , our 12 case study sites reflected the following

variations in board composition and staff morale:

          75 percent had a clear separation between board and

          staff functions, whereas 25 percent of them had one

          person simultaneously serving as board chairman and

          medical director; and


          66 percent reported at least average staff morale,

          whereas 33 percent of them had at least some staff who

          reported low staff morale: board members tended to

          rate staff morale more highly than PRO   staff. Most
          respondents reported that the key factors inhibiting

          stronger staff morale included the lack of competitive

          salaries , the high turnover in nurse reviewers, and the
          frustrations inherent in the shifting priori ties of a
          quickly changing program.

The case sites also showed great variation in their quality

review systems and relationships with external entities, which

were highli hted in our first report on the PROs' quality review

activities.
                       LIST OF ABBREVIATIONS


AAP:            American Association of Retired Persons
AM:             American Medical Association
BPO:            Bureau of Program Operations , Health Care
                   Financing Administration

Carrier:        Medicare Carrier
CEO:            Chief Executive Officer
COBRA:          Consolidated Omnibus Budget Reconciliation
                  Act of 1985

DRG:            Diagnosis-Related Groups
EOMB:           Executive Office of Management and Budget
FI:             Medicare fiscal intermediary
HCFA:           Heal th Care Financing Administration
HSQB:           Heal th standards and Qual i ty Bureau
GAO:            u. S. General Accounting Office
OBRA 1986:      Omnibus Budget Reconciliation Act of 1986
o BRA 1987 :    Omnibus Budget Reconciliation Act of 1987
OMB:            Office of Management and Budget
PPS:            prospective Payment System
PRO:            Utilization and Quality Control Peer Review
                  Organization
PROMPTS - 2 :   Peer Review organization Monitoring Protocol
                  and Tracking System for the PROs I Second Scope

                  of Work

PSRO:           Professional Standards Review Organization
SuperPRO:       SysteMetrics ,   Inc.
                       :/ / .        //' /" ';. ' ';' ';' ';' ';
                                     )- /."        / /.                                                                      ;.-
                                                                                                                           -="'




                                                                    FINDINGS
PRO-RELATED FINDINGS

Most resDondents reqarded the PROs as at least moderate 1 y
effective in carryinq out their mission


The vast majority (83 percent) of respondents reported favorably

on the PROs' effectiveness (see figure I). Among the several

groups interviewed, the strongest proponents of PRO effectiveness

were the PRO CEOs, congressional staff, and hospital association

representatives. The harshest criticism of PRO effectiveness

came from some medical societies , national governmental review

entities, and HCFA regional staff.

                             FIGURE I
            PERCEPTIONS OF THE PROS' EFFECTIVENESS E\
                   CARRYIl\G OUT THEIR MISSION
 'JV\! EFFECT,V'
                                                                                                     PRO Chief Exe(:. ;"e
                                                                                                     Off;cers (CEO
           VERY        I/
                                I'            I'                                                     Ccs   Study P=?c-     S::.
                                                                                              lL C:'IC 50arc
                                                                                              f /1
                                                                                                                 ME:


   O:'ERATELY
                                                                                              00 CentrOi
                                                                                                 HCF,c Rea;0
                                                                                                         6ff;':
                                                                                                                       ' or.



                                                                                                     Nctional Exte n'J!
                                                                                                     Entities
    MINIMALLY
                                                                                              P'     Locoi Ex- terne
                                                                                                     Entities
                                                                                                     iota; for all
                NC:i                                                                                 Respondents


   r;:-:        ,OW




                                                                        6:-                 100
                                       PERCEt'-IFGE          ()r CF. TEGOPY   RESPONDlhJG
Source: OIG Inspection               Interv;ews-
Note: N= 208 respondents.

Of those respondents who viewed the PROs as effective, the major

reasons cited for their assessments were, in descending order of

frequency, as follows:
                            the PROs had a positive impact on the quality of

                            patient care;


                            the PROs provided good educational information to the

                            medical community;


                            the PROs had a positive influence on changing utiliza­

                            tion patterns;


                            the PROs had a strong sentinel effect on physician and

                            hospital practices.

The maj or reasons cited for low ratings of PRO effectiveness

were , in descending order of frequency, as follows:
          the PROs I educational efforts to change physician

          practices were   inadequate;
          the PROs operated with too many constraints;


          the PROs had inadequate support from the medical

          communi ty .
It is worth noting that a sizable number of both HCFA and

national external entities mentioned that the effectiveness of

individual PROs varied so widely that it was difficult or

impossible to develop a composite picture of the PROs' overall

effectiveness.
Our analysis of response patterns among our 12 case study sites

revealed the following (see table 1, appendix X):

          The PRO CEOs and other staff tended to rate their own

          PRO as at least moderately effective. Only two PROs

          (sites E and K on table 1) had staff members who rated

          their PRO as minimally or not  effective. In   one case
          the reason offered for that rating was the excessive

          difficulty the PRO had in recruiting physicians to

          review cases and the resultant difficulty in meeting

          HCFA' s time frames. In the qther case , the staff
          person noted that the PRO' s ineffectiveness was due to

          the overly prescribed nature of its work and the lack

          of funding necessary to keep ' up with its requirements.


          The hospital associations tended to give the PROs

          higher effectiveness ratings than did the other

          external entities. This is consistent with the fact

          that the case study sites usually had closer working

          relationships with the hospital associations than with

          the medical societies , or state medical licensure

          boards. 3 In fact, a sizable number (45 percent) of the

          state medical licensure boards in our case study sites

          noted that  they "did not know" the effectiveness of
          their PROs. This was consistent with our finding in

          our previous report on the PROs ' quality review

          activities that most PROs have little interaction with

          their state medical licensure boards.


          In one quarter of our case study sites (sites A, G,

          and H), all respondents considered the PRO at least

          moderately effective. In all the other sites, at least

          one respondent rated the PRO less than moderately

          effective or "did not know" the PRO' s effectiveness.

The three PROs that were consistently rated as at least

moderately effective by all entities were of different sizes and

geographic locations. However , the three organizations shared

the following characteristics:
          high staff morale;


          relatively strong sanction referral records;

          contracts with State Medicaid and bus iness entities in

          addition to the one with HCFA;


          no subcontractors for review activities;


          relatively visible board chairmen and CEOs who worked

          closely together;


          communication links in place with most significant

          external entities , through either designated positions

          on their boards , active task forces , or advisory groups

          to the board.


The most striking indication of the PRO program'    growth in
stature was the fact that although many people we   interviewed
voiced particular concerns about the PROs, no one
overall need for the program.

                                                    questioned the
Manv respondents noted that the PROs' effectiveness has been

hampered bv both internal and external constraints


The most significant constraints mentioned in descending order of

frequency included the following (see figure II):

          Limi tedresources: insufficient   money, staff, and time
          to carry out the PROs ' myriad responsibilities. Most
          PRO and external entities believed that the PROs had

          inadequate funding for their acti vi ties , whereas most
          HCFA staff thought that the PROs had adequate funding.
          As noted by one U. S. Senator: "We recognize that the

          PROs have done their best to move beyond their original

          mandate for utilization review and to put greater

          emphasis on quality... (but) their efforts have been

          severely hampered by limited funds. ,,4

          Many PRO staff mentioned their difficulty in attracting

          and retaining good physician and nurse reviewers, the

          former because of medical community resistance and the

          latter because of an inability to provide competitive

          salaries and the lack of professional stimulation

          inherent in repeti ti ve patient record review.
          HCFA's management: inadequate time frames , inconsis­
          tencies in interpretation among HCFA regional offices

          and too prescriptive a process for carrying out the

          PROs' responsibilities. Many PROs voiced concern about

          the serious delays in HCFA I S contract modification
                                   :' ; ,              ';,,,
                                               .'' :. . '        , -      ) , ) , ) , )' '"

                                                                                          " ' " ' " ' "                                             :::




                                 process and the corresponding need for PROs to under­

                                 take new responsibilities without the neces ary
                                 funding.  The American Medical Peer Review Association
                                 (AMPRA) conducted a PRO survey last year, which found

                                 that contract modification delays were posing serious

                                 cash-flow problems for several PROs. Since that time
                                 HCFA has implemented a computerized tracking system for

                                 contract modifications , and Congress has mandated that

                                 HCFA must give notice to the PROs 30 days befor­

                                 requiring new activities.


                                 In addition , concerns were raised by PROs and some HCFA

                                 staff themselves about both the lack of consistency in

                                 interpretation of PRO requirements and the extensive

                                 requirements for uniformity that HCFA places on the

                                 PROs for selecting cases for review.

                                 The PROs I lack of acceptance by the medical community:

                                 the PROs ' difficulty in effecting change in practice

                                 patterns given their often adversarial relationships

                                 wi th the medical community.


                                 Program s dynamism: the rapid pace of change in the
                                 program dictated by congressional action.
                                 Inconsistent expectations: the PROs'   mandate to be
                                  all things to all people,,5 and the sometimes conflict­

                                 ing messages the PROs have received from government

                                 oversight entities.


Other constraints mentioned included the PROs' lack of adequate

interaction with external entities , and their extensive oversight

by multiple government                                                    entities.
                                          FIGURE II
                       PERCEPTIOl\S OF THE MAJOR CONSTRAINTS LIMITI
                                                               THE PRO' S EFFECTIVENESS
             STRA!         (;S
                                                                                                                           PRO Chief E)t cut...
                                                                                                                           Officers (CECS'
  LACV. OF RESOURCES
                                   k: ?: 5:                                                                               Case Stuo:; PRC' S'c
                                                                                                                      L. and Boor       m=.,:
                                                                                                                      b? HCFA          Reo.ono: on:
       h:   A MANAGEME NT
                                                                                                                      l2 Centro ' Of:,       :,: S

                                                                                                                      f'   ~ationc
                                                                                                                           t... tl:'
                                                                                                                                         E It t,=

P""\' S:.:iA"   RES:STAN:E                                     C' ' C""
                                                                                                                         Loco. E.\,,'
                                                                                                                      (L E tltte
   Pr=OG::A' t DVNAM:SM                                                                                                    Total fo' 01:
                                                                                                                           R"!spono


 G")'J'-    1I,:'Y6   STE ,:Y



                                                                                                                10­
                                                            PERCE'     Tt.:;E MEI,tTIOhJING    EACH C() STRA!
s: ,            :: t"s:r     ':'' H- ;te.. ..i ..s..
                       es;:' :I.::t:..
Respondents reflected considerable consensus reqardinq the PROs'
most and least useful HCFA-defined activities.
Of the five types of review that the PROs are required to perform

on a given record (see categories A-E in appendix IV), generic

quality screens and admission reviews were seen as the most

likely tools for identifying quality problems. This was
consistent with our previous report on the PROs ' quality review

activities,6 which noted that respondents saw those quality
activities as the most important part of the PROs ' mission.

On the other hand, no one found coverage review the most useful

type of PRO review and a large majority of the PRO CEOs (82
percent) saw it as least useful.  Many respondents mentioned that
the PROs were less equipped to make coverage determinations than

fiscal intermediaries, which are more versed in the intricacies

of Medicare coverage requirements.


Among the 18 types of retrospective and prospective review

mandated by HCFA (see activities 1-18, appendix IV), respondents

found the following four most useful:

          3 percent random sample from each PPS hospital;


          all readmissions within 15 days from a PPS acute care

          bed to any acute hospital (PPS or non-PPS) for inap­

          propriate admissions;


          performance of five objectives to eliminate adverse

          outcomes and reduce unnecessary admissions and proced­

          ures ;
          intensified review of hospitals that reach six cases or

          5 percent trigger error rate.

Every respondent group rated the 3 percent random sample as most

useful for identifying utilization problems and readmission

review as most useful for identifying quality problems. However,
it is worth noting that one third of the national external

entities and one half of the local external entities had no

opinions about the most and least useful activities.


Those types of review found least useful by respondents   included:
          all percutaneous lithotripsy claims in hospitals with

          extracorporeal shockwave lithotripters;


          all cases identified by the Medicare code   editor;
          all cases referred by the fiscal intermediary for

          coverage issues;
            50 percent random sample of day and cost outliers;


            preadm1ss1on review of pacemaker and four procedures

            proposed by a PRO that add up to 2. 5 percent of
            statewide discharges;


            all cases involving assistants at cataract surgery; and


            all submitted claims adjustments resulting in a higher-

            weighted DRG.


Percutaneous lithotripsy review was ranked as the least useful

activity by a considerable margin. However, the other types of
review listed as least useful were more equally ranked by

respondents.
Respondents' rankings of the least useful review activities

closely paralleled their rankings of those activities they

thought should be de-emphasized or eliminated from their

contracts. In addition to all the least useful activities
previously outlined, a number of respondents also thought that

the PROs' requirement to perform five objectives should be de-

emphasized or eliminated, although many respondents noted it as

being a useful review. This indicates that there is greater
discrepancy in perceptions about this activity than most others,
which may be explained by the fact that since such objectives are

PRO-defined, there is greater variation among the PROs in their

implementation of that requirement.


Furthermore, a significant majority of PRO CEOs and staff noted

that the five objectives and the day and cost outlier activities

consumed more time than they warranted. On the other hand, they

thought that the readmissions wi thin 15 days and the 3 percent

random sample review activities were worthwhile in spite of their

being time-consuming. Nevertheless, several PRO CEOs and staff
questioned their upcoming mandate to extend readmission review to

31 days.
It is important to note that HCFA has eliminated percutaneous

lithotripsy review from the third scope of work and has decreased

the percentage samples of day and cost outliers.
The PROs reported somewhat more effective relationships with

their Medicare fiscal intermediaries than with their Medicare

carriers.
A vast majority of PROs (91 percent) reported having at least

moderately effective relationships with their local fiscal

intermediaries (FIs). A smaller number (79 percent) reported

similar levels of effectiveness with their carriers.
Our case study analysis revealed that most PROs had more

interaction with their fiscal intermediaries than with their

carriers. The FIs forward the Unibill tape to the PROs from

which the PROs select cases for review. The FIs also make

payment adj ustments in response to cases in which the PRO makes
DRG changes or denies an admission. In discussing their FI-
related concerns, several PRO and a few HCFA staff mentioned

concerns about the FIs' lack of timely payment adjustments and

the lack of close coordination between the two respective HCFA

components (Health Standards and Quality Bureau and the Bureau of

Program Operations) responsible for the PROs and FIs. A few of
the PRO CEOs from the case study sites noted that their

relationships with the FIs were enhanced by regular meetings with

the FIs and appropriate HCFA personnel.


A recently conducted and as yet unreleased OIG audit provides

supporting evidence of the FIs'    ack of timely adjustments.
that audit , the OIG' s Office of Audit (OA) notes that as of July
1987 , approximately 54 000 claims adjustments totaling about $51
million remained unprocessed by the FIs.    More than 40 percent of
those unprocessed adjustments were pending at the FIs for over 90

days.   The OA audit provides recommendations to HCFA for ways of
improving the FIs' timeliness in making such adjustments.

Most PROs reported relatively little ongoing interaction with

their carriers but found few problems with what existed.  They
anticipated having more interaction with them as they begin to

conduct reviews in nonhospital settings.  Accordingly, in our
first inspection report, we noted the need for HCFA to facilitate

a stronger link between the Medicare Part A and Part B data

bases.
In its recent draft report , "Medicare Improving Quality of Care

Assessment and Assurance " the General Accounting Office (GAO)
highlighted the inadequate coordination among the PROs, FIs and

carriers on issues related to quality . Just as we argued in our
first inspection report that Medicare beneficiaries would be

better served by closer coordination between the PROs and other

entities such as licensure boards and hospital quality assurance

committees, GAO recommended that HCFA "develop formal guidelines

to coordinate the systematic and timely reporting by carriers and

intermediaries to PROs of possible problems with the quality of

care provided in ambulatory and post-hospital care settings

identified in medical reviews. ,,9
There has been considerable  variation amonq the PROs in the
deqree to which their review decisions have concurred with those

of SuperPRO


HCFA has contracted with SysteMetrics (more commonly referred to

as SuperPRO) to biannually review a sample of records previously

reviewed by each PRO (see appendix III for a fuller discussion) 

During the PROs ' second contract period, the first 6 months of

which corresponded to the fourth SuperPRO cycle, SuperPRO

validated the determinations made by the PROs regarding admission

review , discharge review , DRG validations , quality review , and
admission referrals (i. e. , whether the PROs' nurse reviewers are
referring appropriate cases to their physician reviewers).


Because no acceptable range of disagreement between the PROs and

SuperPRO has been established and no national trend analysis of

variation among identified quality problems has been undertaken,

it is impossible to judge a particular PRO' s performance based on

SuperPRO data. However, an analysis of PRO/SuperPRO variation

within the second contract period (cycle 4) reflected the
following patterns (see table 2, appendix X, for a summary of the
ranges and means of these differences) :

          the PRO and SuperPRO findings corresponded most closely

          in the area of premature discharge , where both groups

          found relatively few problems;


          the largest average difference between PRO and SuperPRO

          findings was in the area of DRG changes and the widest

          range of differences was in the area of admission

          referrals;
          SuperPRO generally found a greater frequency of

          problems in each area of review than did the PRO, with

          the following exceptions:


               one PRO found more quality problems;

               three PROs identified more cases for review DY

               physicians (i.  , admission referrals); and
               one PRO found more cases of premature discharge.

These patterns were generally consistent across the 4 cycles of

SuperPRO review and among our 12 case sites. Two additional

considerations are worth noting. First, although HCFA required

the PROs to use generic quality screens in the second contract

period, their use appears to have had no effect in narrowing the

margin between PRO and SuperPRO differences. in either identifying
quality problems or in determining when it is appropriate for a

nurse reviewer to refer a case to a physician reviewer

(i. e. , physician referrals). A comparison of the PRO/SuperPRO
differences across the four cycles (the first three of which

correspond to the PROs' first contract period) reflected that the

overall differences between the PRO and SuperPRO seem to have

widened rather than narrowed in these two areas (see table 2.
More specifically, between the third and fourth SuperPRO cycles

the range of difference between PRO and SuperPRO findings related

to quality problems and admission referrals has widened, although

the average difference has remained relatively constant.   This
may be explained by the PROs' variation in  implementation of the
generic quality screens noted in our first inspection report.

 . ..-=, -          ..                ::, ""                                                                                  . q ""         ":';:
                                                                                                                                                ..      , .,:\-=
                                                                                                                                                     -- ..




Second , in our case study analysis , we found no consistent
association between perceptions of PRO effectiveness and

PRO/SuperPRO agreement          Although one of the three PROs   levels.
perceived by all respondent groups to be at least moderately

effective also had consistently high agreement with SuperPRO , the

other two reflected average differences with SuperPRO (see
table 3 
                    appendix X).
In response to the generally high discrepancy rates between PRO

and SuperPRO, the PROs have complained that SuperPRO fails to

employ- local physicians to review PRO cases and that they have

little if any opportunity to discuss differences with SuperPRO

reviewers. A further discussion of SuperPRO issues will be
included in the HCFA-related findings section of this report.
HCFA-RELATED FINDINGS

There has been siqnificant improvement in HCFA' s manaqement and
administration of the PRO proqram durinq the second contract

period
Despite the problems that are enumerated in other findings of

this section , HCFA staff have made important strides in address­

ing PRO- related concerns as reflected by the fact that a maj ori ty

of all respondents rated HCFA' s management of the PRO program as

at least " moderately effective. (see figure III). It is worth
noting that HCFA received the highest ratings from those respon­

dents most intimately involved with the PRO program--PRO and HCFA

staff.   Respondents from entities less involved in the implemen­
tation of the program rated HCFA' s management less favorably.

                                                                        FIGCRE III
                                PERCEPTIO:'S OF THE EFFECTIYE\"ESS OF

                                         HCFA' S MANAGEMENT
       \' E     FECTIVE
                                                                                                                                 Dn "
                                               "A:r,
                                                                                                                           tZP Officers (CEC:=:
              VERY
                                                                                                                               Case Stuay D:o':.
                                                                                                                               and Boanj Mecnt. E-"

   1.")2ERATE:. y                                                                                                          I? Ce"tra
                                                                                                                              HCFA Reaionc
                                                                                                                                     Offj(
                                                                                                                                                        'Jr,:
                                                                                                                                                           :f;
                                                                                                                           r7 Ent:
                                                                                                                               Nationai ExterrJ
                                                                                                                                       -=s
        Mlt.ml.A:L.Y
                                                                                                                               L.oco: Ext",'...:
                                                                                                                               Entities
                                                                                                                                 ()tal for 0:'

                NOT
                                                                                                                               Respondents


 e.:     Y;- f NOW


                                                                                                                    1IV'
                                                                                                                      ­

                                                                                   .- C" C:;: - r - ' -- : t. ' -
                                                                                   t\ I. ...,,J,
                                                          =:=r   C.:-      GC'R'                     .. v:

              O:.        ir,s:.e:::                    ;ev.
                            res:):)     :C-E"'
                                                                                                                          ::;''
                                                                                                                       : :-




Furthermore, a majority of respondents also thought that HCFA'

oversight of the PRO program had been improving since the start

of the PRO program                              (see figure IV).
                                      Again, those respondents
closest to the PRO program tended to give HCFA the highest marks

for improvement , but a sizable number (60 percent) of the

national external entities also saw HCFA' s management as
improv ing .

                     FIGURE IV
     PERCEPTIONS OF CHANGES IN HCFA' S OVERSIGHT
                                                                                  V7 PRO Chief ::ie':u:i' ''E
                                                                                  rL   Offic ers (CE Cis)

   GE'TING BETTER                                                                      Case Study PRe: :::,:
                                                                                       ena Bocrc I'
                                                                                       c..:    ;. F'2':

                                                                                       ':e     :rc.

     ::TT!f          O;'S                                                              r\ctjo         c:' E). :r:"

                                                                                  L. Enti ;es
                                                                                  Vl



                                                                                       c.C .
                                                                                                            ,;,r r-.
                                                                                       Ent!tle
:"7':jf.JG THE S        IE
                                                                                         ot.::        fe,
                                                                                                 on.:;,". ts

     CC r:T Kt,oVi



                                                                        gc.    i c:
                                                                   s- P :) r
::c rc e            tnS;J-=C :;c"" ir,t-ervie'l S

      : N=     S-E     res::., rtden


Our conversations with respondents , coupled with our review of

HCFA materials , disclosed that HCFA has increasingly emphasized

greater consistency and stability in program operations and has

intensified efforts to improve communications with the PRO

community and national constituency groups. The HCFA' s push to

improve communication included at least three components. First
since 1    , HCFA has held periodic, high-level meetings with

representatives of the PRO community and national constituency

groups of providers , physicians, and beneficiaries to discuss

issues related to the PRO program. These discussions have

resulted in a formal PRO action plan that summarizes specific

actions for improving program administration in such areas as

communications, monitoring, and evaluation , and for improving the

effectiveness of the PROs. Second, in September 1987 , HCFA
ini tiated its first national meeting with PRO staff and HCFA-
regional and central office                             staff.
                                     Third, senior HSQB staff now
participate regularly in biweekly conference calls for all PROs

convened by the American Medical Peer Review Association (AMPRA).
In addition, HCFA' s increasing emphasis on consistency and

effectiveness has led it not only to seek more input into policy-

making from both the PROs and outside experts   but to undertake a

number of research initiatives to strengthen the PRO program.
Finally, it has taken measures to improve program operations by

formalizing the policy interpretation process , allowing the PROs

30 days' advance notice of program changes and implementing a

tracking system to monitor contract modifications.


The HCFA' s success in improving communication with the PROs was

indicated by the fact that 84 percent of the PRO CEOs and staff

and 93 percent of the HCFA regional staff noted at least " moder­
ately effective" relationships between the PROs and HCFA regional

office staff. On the other hand, HCFA' s central office staff

either assigned lower ratings to the regional office/PRO

relationships or offered no opinion of tnose relationships.

A smaller percentage (43 percent) of            fRO CEOs and other PRO staff

viewed their relationships with HCFA'           s centrai office as posi­

tively as those with regional office
not consider that they had enough of
                                                staff.  In fact, many did
                                                a relationship with HCFA

central office staff even to comment            upon it.
When asked for their observations on the changing nature ox PRO­

HCFA relations, 66 percent of PRO CEOs , 90 percent of HCFA

central office staff and 48 percent of HCFA regional office staff

reported that those relationships were " getting better.    On the
other hand , a small percentage (14 percent) of the PRO CEOs noted
that their relationships with HCFA were " getting worse.    Those
individuals represented 6 PROs from 5 of the 10 HCFA regions. In
explaining the reasons for the deteriorating relationships , all

commented on the fact that the regional HCFA staff were If ni t-

picky" and offered inadequate technical assistance. The fact
that only one HCFA region received more than one of these

negati ve ratings suggests that the PROs' perceptions of HCFA'
effectiveness may be largely influenced by their relationships

with particular project officers.
The HCFA' s ability to assess PRO Derformance has been limited bv

the lack of refinement and intearation of its evaluation tools


When we began this study, we expected to be able to draw def             ini­
tive conclusions about PRO effectiveness by supplementing our

interview- generated data with HCFA evaluation
                                            various tools,
                                                           data.
                                                       But, because
                                                           such an

of certain limitations inherent in  HCFA' s
analysis has been impossible.
Al though half of the total respondents thought that           HCFA' s
process for evaluating the PROs was at least moderately effec­

tive, a quarter of the PRO CEOs rated the process as minimally or

not effective (see figure V) 

;:;:,"         :::            . '\. / "'\ / '\ "/ .,"/ 

                              ~~~~~~~~



                                                     FIGURE V

                                      PERCEPTIONS OF THE EFFECTIVENESS OF

                                           HCFA' S EVALUATION PROCESS
f-Ji!, EFFECTIVE
                                                                                             PRO Chief Exe: utive
                                                                                        t:   Officers (CEGs)

                                                                                        f'   Case Study PRO Std'
                                                                                             and Boord Me      ber
                                                              b;'                            HCFA Reg;o"'J: or.
   MOD'"'
                                                                                        b6   Central Ofke    t.::
                                                                                        r7    ionol External


         MIN t VII" I
                                                   S' ,                                 Ut.r.. tles
                                                                                              0(O! Externol

                                                                                             Entities
                            tFS':;'                                                          Total for 0!1
                     NO""
                                                                                             Res;)ondents


         JT Kt\8Vw



                                                              4C 60
D: t




                                                                                      100
                                               PERC:: ;Ac;:: OF CATEGOPY RESPONDING
                ::: :r.s::,
                         o?:          i0n !:1ter\r'eVwS
     :-e r'           :-.: reSDo:" .:e;.


The HCFA employs three general tools for evaluating the PROs

performance--the PRO Monitoring Protocol and Tracking System

(more commonly referred to as PROMPTS-2), SuperPRO and periodic

(monthly and quarterly) data reports (see appendix III for

description). Our interviews and review of a sample of those

documents revealed both individual and collective problems which

will be summarized below.


PROMPTS-2

Both PRO and HCFA respondent groups rated the PROMPTS-2 as a more

effective evaluation tool than Super PRO (see table 4

appendix X). Sixty-two percent of respondents thought that the

PROMPTS-2 was at least moderately effective. Not surprisingly,
HCFA staff were more enthusiastic in their ratings of PROMPTS-2

than were the PROs.

Our interviews and review of the PROMPTS-2 protocol revealed the

following concerns about PROMPTS-2:


                                      PROMPTS-2 has focused primarily on process versus

                                      outcome evaluation of the PROs' performance. As one

                                      HCFA official noted, "Outcome       easures would be nice
                                      but we don           't have them.
                                                                    They must be developed.
          PROMPTS-2' s design encourages potential subjectivity

          and inconsistency among regional office reviewers

          because it lacks standards for determining PRO

          performance. Furthermore, it fails to capture
          gradations in PRO performance because it has only

          yes/no rating categories.


          The medical review component of PROMPTS-2, in which

          regional office staff draw a sample of records reviewed

          by the' PRO and validate the PROs' judgments in these
          cases , is seen as problematic. Specifically, some
          respondents questioned the expertise of regional office

          medical reviewers and the validity of their

          determinations. Many others commented that the medical

          review element of PROMPTS-2 duplicates the SuperPRO

          process.
SuperPRO Review


The PRO CEOs and staff were the strongest critics of SuperPRO

(see table 4 , appendix X). Furthermore, while most HCFA staff

considered SuperPRO a nationally consistent tool for validating

medical decisions of all PROs, a number of HCFA regional office

staff echoed the PRO respondents ' uncertainty about how SuperPRO

resul ts have been used in evaluating the performance of

individual PROs. In addition, our interviews and a review of
SuperPRO data revealed the following concerns:
          The HCFA has not established guidelines for acceptable

          levels of PRO/SuperPRO discrepancies, thereby making it

          impossible to assess significant concerns. Nor has
          HCFA undertaken an analysis of those PROs with close or

          strongly disparate SuperPRO agreement  levels. only
          analysis computation of national average rates of

          PRO/SuperPRO disagreement has been made.


          The HCFA has not undertaken any trend analysis of the

          types of quality problems identified by SuperPRo.


          SuperPRO was viewed as unresponsive by many PROs

          bec use of the lack of contact between PRO and SuperPRO
          reviewers and the SuperPRO' s limited use of local

          reviewers.
          The 6-month lag time between SuperPRO review and HCFA I S
          receipt of SuperPRO reports has made it difficult for

          HCFA regional staff to integrate the findings into its

          own (PROMPTS-2) review of the PROs. For instance
          SuperPRO cycle 4 reports were unavailable in time to

          integrate into the first PROMPTS-2 review.
          The HCFA has required SuperPRO to sample approximately

          400 records from every PRO' s review area every 6 months

          regardless of size or general performance; several PROs

          have complained about the excessive staff resources

          involved in meeting such demands.

Despi te the considerable concerns raised about the SuperPRO com­

ponent, however, a recent study by the OIG corroborated SuperPRO

rather than PRO rates of unnecessary admissions. 12 In that
review of 7 050 Medicare records from 239 hospitals, OIG found

that 10. 5 percent of the hospital admissions were unnecessary, as

opposed to the 2 percent to 2. 5 percent noted by the PROs.
Data Reporting


The data-reporting process used to monitor ongoing PRO perfor­

mance has been problematic for both the PROs and HCFA since the

beginning of the program. In the absence of HCFA- generated
software and computer system specifications, the PROs have

struggled on their own to develop and refine the sophisticated

data systems required for timely and accurate reporting of their

activities to HCFA.


The complexity and large volume of reports required by HCFA has

complicated this process. For example, the 1- page Sanction
Report (HCFA-545) has more than 12 pages of instructions. And
HCFA has required the PROs in the second contract cycle to submi 

23 different reports , over 90 percent of which are submitted

ei ther monthly or quarterly . The PROs have also faced the added
difficul ty of being responsible for ever-changing reporting
requirements called for either by HCFA or by new legislative

mandates. The requirements changed significantly between the

first and second contract periods, and the reporting process will

change again for the third scope of work beginning in  1988.   The
consequences have been PRO data reports that are frequently

inaccurate and untimely and data that are inconsistently reported

from PRO to PRO. Al though nearly three-fourths of HCFA staff
rated the PRO reports as being at least moderately useful , many

voiced concernS about the quantity, quality, and complexity of

the reported data.   In-depth data analysis for the purposes of
program planning and evaluation has been limited, in part because

of the volume and unreliability of the reported data.   Analysis
has also been limited by HCFA' s emphasis on addressing its

immediate concerns for validating the accuracy of PRO reports and

for remedying reporting problems. It is worth noting that HCFA
has recently taken steps to strengthen its data analysis

capability and is planning to reduce the PROs' reporting

requirements in the third contract cycle.
Inteqration of Evaluation Tools


The PROMPTS-2 protocol, the SuperPRO process and the PROs ' data

reports have not been sufficiently integrated into a comprehen­

sive, coordinated system for evaluating the PROs ' performance.

For instance, although the PROMPTS-2 protocol has been designed

by HCFA to serve as the basis for monitoring and evaluating the

PROs' performance , it has failed to incorporate- systematically
the disagreement rates of SuperPRO reviews to permit comparison

with those of the HCFA regional office medical reviews. In
addition, although the medical review component of PROMPTS-2

appears to have duplicated SuperPRO activities, the time frames

and sampling methodologies have not been complementary, thereby

precluding potentially useful comparisons between the two.
Furthermore, PROMPTS-2 has failed to integrate appropriate data

report information. For instance, although PROMPTS-2 addresses

the PROs' progress in achieving the quality objectives of their

contracts , specific data related to the PROs' activities concern­
ing quality of care problems , including sanctions, have not been

incorporated into the evaluation document.


Implications for Contract Renewal Process


In the fall of 1987, HCFA issued guidelines to the regional

offices, which were shared with the PROs, that outlined the

process and scoring system to be used for evaluating PROs for

renewal for the third contract period. . The second PROMPTS-2 will
serve as the basis for assessing PRO performance for contract

renewals. . In close-call situations, HCFA will utilize the
resul ts of SuperPRO review , the PROs' performance in HMO/CMP

review, where applicable , and the PROs ' cost/savings ratios as

computed by HCFA. However, the evaluation guidelines failed to
include either the - weights or the criteria that HCFA reviewers
will use when considering such factors.

The process to be followed by HCFA will begin with the prepara­

tion by regional offices of an evaluation package for each PRO

consisting of the PROMPTS-2 review , including a total point score

for performance , as well as a recommendation for either renewal

or nonrenewal. Evaluation packages will be forwarded to central
office panels for further review.   According to HCFA staff, these
panels will be ad hoc groups composed of approximately two

central office staff and one staff person from a " neutral"
regional office. Panel members will deliberate and make their

decisions by telephone because of limited travel money and tight

deadlines for decision making. Should the review panels not
concur with regional office recommendations or should they make a

recommendation for nonrenewal, a third level of review will be

performed by senior HCFA managers, the proj ect officer, and the

regional branch chief

::                   ,,..            ,:-:.. ::-:                 )) /;
                                                              :;;;.-:                             ::               \::                           y'::; -=-,-,:...::::
                                                                                                                                                                  :. ..:




The review panels ' lack of consistent membership coupled with the
limitations of HCFA' s evaluation tools make the renewal process

for the third contract period vulnerable to inconsistencies in

evaluation and decision making. It is worth noting that GA0
recognized such inconsistencies in HCFA' s renewal process for the

second contract period, and HCFA assured GAO that proper internal

controls had been instituted to avoid such problems in the

future.
The HCFA appears to have qi ven the PROs insufficient information
on its criteria for makinq contract renewal decisions

When asked to identify which of the PROs' activities have been

most important to HCFA when evaluating the PROs ' performance

respondents in all groups mentioned a wide range of                                                                              activities.
Eighty-three percent of HCFA staff named activities related to

the PROs' quality review. In fact, HCFA staff mentioned quality
review almost three times as often as any other                                                                          activity.
contrast , only 32 percent of the PRO CEOs and 25 percent of other
PRO staff identified quality review as being the most important

activity to HCFA in evaluating PRO performance.


The PRO CEOs and staff most frequently noted the importance of

fulfilling their contract deliverables. Most of the respondents

from national and local external groups (33 percent and

36 percent, respectively) identified denials and cost containment

activities' as being the most important of the PROs' activities tG
HCFA. Less than 10 percent of the respondents from these two
groups mentioned activities related to quality review (see
figure VI)
                                   FIGURE VI
                PERCEPTIO S OF THE MOST IMPORTAKT ACTIVITIES
                      HCFA E\ EVALUATE,G PRO PERFORMANCE
                                                                                                                            f7 PRO Cni
                                                                                                                            rL   C'ffic

                  I. " 17v
                         . , .. I_    Y.                                 XXXXXXXXXXXXXXXXXj
                                                                                                                            1" Cose S :"0:; ;:
                                                                                                                            h. ana Bocrc           t\i -2r1-I:'-='

                                                                                                                            (X   HCcA R-:c,
                                                                                                                                           (:I
                                                                                                                                                           C":
                                                                                                                                 Centrc:           ,:e    S:-:
C :)':TF .:- :T DEL IVERAB..
                                                                                                                            r7 Entities
                                                                                                                               Not,onoi E, te'

                                                                                                                                 Loco: Ex:",,":
                                                                                                                                 Entities
            C::5T COt\TAiNM::N-:

                                                                                                                                 Totel fo' 01

                                                                                                                                 '"esponoents

                         SANCTIONS



                                                                                                                         10::
                                                     PERC::t             :- C4-:E,-:C   C'--ii'        EAC   TC:
            :-=' ':j::. Ir. s::-=:                 vt-: -to
     ::7.       = iEr: " ';S: :­
The striking variations and lack of consensus suggested by these

responses . may reflect the different perceptions that exist about
the PROs' mission. However, they may also suggest that HCFA has

not  learly and consistently articulated its priorities for

assessing acceptable performance by the PROs. For example, the
PROs' second scope of work requirements reflected an increased

emphasis on activities related to quality review. Furthermore,
as we mentioned in our first report, 14 most PROs identified

quality review activities as the most important part of their

mission.    Yet the PROs did not often cite these activities as
being the most important to HCFA in evaluating PRO performance.

Since our interviews of the late summer and early fall of 1987

HCFA has articulated priori ties for evaluating the PROs'
performance during their second contract 
                       eriods. Those
priorities are reflected in the numerical scoring systems to be

used in the final PROMPTS-2 review , which will serve as the

primary determinant in HCFA' s decision to renew PROs ' contracts.

According to that scoring system, four categories of PRO

activities--those related to utilization (and other required

review), to quality review , to data , and to management-- will each

receive a maximum of 100 points , yielding an overall maximum of

400 points. Al though                        that scoring system establishes priori ties
among the PROs' activities , the system also raises questions

about possible inconsistencies and mixed messages sent to the

PROs. For example, quality-related activities under that system
can . result in a maximum of 100 points, or 25 percent of the total
score, which may be inconsistent with the heavy emphasis being

placed on quality review by HCFA and the Congress. Similarly,
communi ty outreach acti vi ties, included in the management
category, can result in only 15 points, or less than 4 percent of

the total score, which seems inconsistent with HCFA' s increased

focus on those acti vi ties during the second contract period.
The use of 2- year. fixed- price contracts appears to have created
inefficiencies in the PRO proqram


Over three-fourths of all respondents believed the 2- year length

of the PROs' contracts has been too short (see figure VII)

  nety-f ve percent of the PRO CEOs, 88 percent of HCFA                          staff,
and 80 percent of national external groups thought that the P

should have longer contract periods, with IROSt respondents
favoring a 3- to 4- year period. Respondents from all groups

cited myriad problems with the 2- year contract period. Most were

related to the undue pressure such a quick turnaround time has

placed on the PROs and on HCFA, especially since the PROs have

been given ever-increasing responsibilities since the start of

the program.

;.




                                                             FIGURE VII
              PERCEPTIO='S OF THE                                 SUITABILITY OF                T\\T O-     YEAR
                                CONTRACTS FOR THE PRO PROGRA \'I




                                OPPOSED-- 7E;'                                          DO NOT KNOW-- 8;'




                                                    Fercent o   Res;:,ondents Favoring

                                                    or.j O;:iJcsing Two- Year Contrccts
s:     ,:-=. (de.. I"sc,-=cti::. r,   Inteiv:ews.
     :-=" r     1 =-7 res::'0ndents


For the PROs, the short contract period has given them very

little time for operating between contract renewal cycles-- some
have equated it with running for Congress every 2          For                                      years.
HCFA, the short contract period has hampered opportunities for

adequate planning and evaluation since it has had to start

planning for the next scope of work after less than a year'

experience with the current           addition, the final       one. In
PROMPTS-2 must be conducted by the 17th month of the PROs 

contracts in order for HCFA to evaluate for renewal and to meet

the deadlines imposed by the contracting            Moreover, the                      process.
time lag inherent in the PROs ' data reporting (PROs have up to 60
days to review records and     additional days to report to HCFA)
has meant that the final 17-month PROMPTS-2 reviews may have been

based on only 14 months of review activity by the PROs.
Finally, HCFA has had only a very short time within which to

evaluate the majority of PRO contracts for renewal and to

negotiate new ones for the next scope of         Fifty-two of the                      work.
54 current PRO contracts expire within a 6-month period beginning

June 30,                 1988.
                During the 6 months preceding each expiration
date, HCFA must evaluat each contractor' s performance, seek
competitive contract bids if necessary, review proposal (s) for
the next scope of work and negotiate a contract before the

beginning date of the next contract           Moreover, with nine                  period.
groups of PRO contracts expiring over a 6-month period and each

group being at most a month apart , HCFA has had to deal

simul taneously withthe requirements of several different groups
each of which may be at a different stage in the complicated

evaluation/contracting process.


The recent OBRA 1987 legislation included a provision, supported

by HCFA, to lengthen the contract period to 3 years and to allow

for greater spacing between termination dates of the PROs

contracts. We believe these changes are critically important to

improving the administration of the PRO program. They will
afford HCFA more time both for evaluating the PROs' performance

based on more months of actual review data and for the planning

and analysis essential for developing subsequent scopes of work.
They will also help alleviate the present administrative

nightmare of having to evaluate for renewal so many PRO contracts

wi thin a short period of time.

ALthough fewer respondents directly noted the inefficiencies of

fixed- price contracting , many complained about a major by-
product of using such contracts for a constantly changing

program--the consequent need for frequent contract modifications.

According to HCFA staff, by the fall of 1987 , HCFA had made more

than 1, 300 modifications since the first contracts, with 700 of
them occurring during the first 15 months of the second contract

period.
The PROs have complained vehemently about the long periods of

time involved in processing these contract modifications. During
the past year, HCFA has initiated several measures to address

these problems. Guidelines for the contract modification
process, developed in cooperation with the PROs, were issued in

September 1987. These guidelines detail the responsibilities of

HCFA and the PROs as well as procedures and time frames for

submission and review of contract modifications. In addition,

the program and contracting components of HCFA responsible for

the PRO program have clarified their respective roles and

responsibili ties and have instituted an automated tracking system

to monitor the status of contract modification proposals.

Furthermore, during our conversations with high ranking HCFA

officials, they noted their intent to experiment with alternative

contracting mechanisms with the third contract cycle.
The HCFA' s second scope of work has been hiqhlv prescriptive and

appears to have provided insufficient incentives for PRO

initiative.
When asked for their recommendations for improving the PRO

program, 30 percent of all respondents suggested that HCFA give

the PROs greater flexibility in carrying out their review

activities  (see figure VIII). It is worth noting that
55 percent of PRO CEOs , 50 percent of the local medical associa­

tions , and 24 percent of the HCFA regional staff were among those
suggesting such flexibility.
                    FIGCRE VIII

RESPO;\DEI\TS RECOl\L\fENDI:\G THE PROS BE ALLO,YED
  IORE FLEXIBILITY II\ PERFOR!\fING THEIR REVIE,YS
                                                                                                            f7 PRO      Chief Executive

                                                                                                            tL Offic ers (CEOs)
                                                                                                            I'   Case Study PRO Stc
                                                                                                                 and Board Mem:)ers

                                                                                                                 HCFA Regio:loi one
                                                                                                                 Centra! Offi:e Sta

                                                                                                                 Natio :lJ . Extemo:
                                                                                                                 Entities
                                                                                                                         Enerna
                                                                                                                 c.n..lt!es
                                                                                                                  otal for - 0::

                                                                                                                 ?espondents




                                                                           f.C:          e.c;             100
                r. .- f". -- - " .   .l
                                                   r-
                                            c:'\:. 1
                                                        r-.
                                                              :. I \j --
                                                                                         I! :-' ' 1=' :
                                                                                  ' ,.. r LI. "

         : Oj      jnspect;'J        inte:'viev.'s.
  Gte:    = 211 res ond              nts-

 One of the major reasons cited for this recommendation was that

 HCFA has required the PROs to follow a closely prescribed menu of

  activities(as summarized in appendix IV) without adequate regard
 for whether the activities are productive in identifying either

  quality or utilization problems.  This concern was reinforced by
 the fact that the PROs identified several activities as having

 limited or no effectiveness. While HCFA has either de-emphasized

 or eliminated two of those activities (day and cost outliers and

 percutaneous lithotripsy) in its third scope of work, it has
 retained the other five activities most often considered to be

  least effective: Medicare code editor, fiscal intermediary
 referrals, preadmission review of pacemaker and four procedures

 proposed by the PROs , review of cases involving assistants at

 cataract surgery, and claims adjustments resulting in higher-

 weighted DRGs. In fact , in the third scope of work , HCFA has
 proposed to add further restrictions on the PROs ' preadmission

 review by requiring the PROs to choose 8 from a list of 11

 procedures determined by HCFA.
  In our discussions with HCFA program staff, we learned that                                                                          their
  process for determining both the second and third scopes of work
  was primarily an internal exercise with some input from the PRO
  communi ty. Al though HCFA staff reported using statistical
consul tat ion in determining the sampling methodologies, we were

unable to determine the reasons for the particular sampling

percentages or trigger points included in the review activities

(e.g., 50 percent sample of day and cost outliers or intensified

review when hospital reaches six cases or 5 percent trigger error

rate) .
In determining the PROs ' scope of work, HCFA has clearly had to

balance competi ting   forces for flexibility and uniformity. While
the PROs have pushed HCFA to allow them more latitude in deter­

mining their approaches to review, Congress has held HCFA

accountable for maintaining national statistics on the PROs'
activities.   However, in reviewing the list of PRO activities
(appendix IV) with HCFA staff, we learned that most of the

specific requirements for particular types of review derived from

HCFA itself. Many respondents cited the desirability of having

HCFA conduct pilot tests prior to mandating universal review of

activities by all PROs. In fact , HCFA is planning to undertake
several pilot tests during the third scope of   work. Neverthe­
less , it is also adding 100 percent review of nine additional

DRGs without first establishing the value of that review.
Several HCFA central office staff noted that the PROs have been

given latitude to focus on their areas of concern by carrying out

their five objectives. However , many PROs commented that HCFA

has made it very difficult to adjust those objectives when they

have needed to do so.
Several respondents from each interview category also highlighted

the need for the PROs to have greater flexibility to focus their

review acti vi ties on troubled providers rather than performing
equal levels of review at all hospitals in their   area.  The HCFA
is planning to pilot test such an approach in the PROs' third

scope of work.


All these restrictions on the PROs' scope of work seem at least

somewhat to contradict the PRO legislation which stressed the

need to give the PROs more latitude in decision making than PSROs

had.  As one medical society representative   noted: "PROs are
overwhelmed right now.   HCFA needs to be more selective with the
current (review J menu. The tooth of the comb is too fine.
observed by a PRO review director: "If unnecessary activities

were eliminated , PROs could focus attention on areas with higher
yield. "
The dynamism and broad scope of the PRO proqram have impaired

HCFA' s ability to manaqe the proqram

Review of the legislative history of the PRO program (see
appendix III) reveals that , from the beginning, HCFA has had to

implement and administer a complex, ever-changing program which

is of strong interest to the Congress , the Administration , and

diverse national constituency groups.   The PRO program has been
caught in the cross-currents of debate over national health

policy and of efforts by the Federal Government to ensure high

quality health care while controlling health expenditures.

Controversy over the necessity for and purposes of the PRO

program both within the Federal Government and among various

national constituency groups has surrounded the program from the

beginning.   The playing out of these various interests has
resul ted in a highly dynamic program characterized by multiple
mandates, shifting emphases , and ever-increasing

responsibilities .
The work load involved in implementing the PRO program has been

enormous. Since the first contracts in 1984 , HCFA has had to
develop and implement management systems for planning, monitoring

and evaluation, and data reporting and analysis. In addition,
the requirements of the initial 1982 legislation as well as those

of COBRA (1985) and OBRA (1986) have had to be translated into

contract scope of work requirements for three contract cycles.
(For a summary of COBRA and OBRA requirements. , see appendix VI.

Two basic contracts have been negotiated for each of the 54 PRO

areas , and , as noted earlier, more than 1, 300 modifications to
the basic contracts of the first two cycles have been required to

keep up with changes in the program.

In carrying out its complex mission, HCFA' s Health Standards and

Quality Bureau (HSQB) staff have had to coordinate their

activities with those of other  entities.  For example, HSQB staff
have had to coordinate the contracting efforts with HCFA' s Off ice

of Management and Budget (OMB). In addition, HCFA has had a
close association with the OIG , which has the authority for

sanction determinations and performs contract audits for HCFA.
And because the PRO program is funded through apportionment fro

the Medicare trust funds, the Executive Office of Management and

Budget (EOMB) has been more directly involved in the
administration of the PRO program than is usual for most

government programs that are funded through appropriations.

HCFA' s large work load has been accompanied by a high degree of
instability in staff within and outside the bureau responsible

for overseeing the program. Not only has the top leadership of
HSQB and HCFA changed since the spring of 1986, but virtually all

division director positions within HSQB were filled by new

personnel at least once during the course of our study.
Given the pace of changes in both the work load and the staff  , it
is not surprising that HCFA' s management of the PRO program

presents a mixed picture. On the one hand, HCFA has been able to

implement a complicated, evolving program and has made

significant strides since the program' s beginning. On the other

hand , HCFA has often been criticized for being crisis-oriented
and reactive rather than proactive in its management of the PRO

program. This   criticism was reflected in the large number of
respondents who identified a wide range of specific concerns

related to HCFA' s planning for and implementation of legislative

requirements , as well as operational policies and procedures for
the PRO program. Such concerns were expressed not only by the

PROs and by local and national constituency groups but by HCFA

staff themselves. As one HCFA manager commented, HCFA is " always
reacting to crisis and having to do too much.


One manifestation of HCFA' s problems has been its delay in

implementing certain legislative mandates. For example, the
provisions in COBRA 1985 requiring the PROs to secure second

opinions for certain surgical procedures have yet to be imple­

mented. On the other hand, timetables established by HCFA for

the PROs to implement new requirements have sometimes been

unrealistically short.   For example, in late summer 1987, HCFA
required the PROs to implement by October 1 the OBRA 1986

provision that PROs review beneficiaries ' complaints about the
quality of care in skilled nursing facilities (SNFs) and home

heal th agencies (HHAs). Al though HCFA subsequently extended the
deadline, the review requirement was nonetheless retroactive to

August 1987.
In addition, HCFA' s instructions and guidelines to the PROs have

sometimes been complex and unclear. For example, several . PROs
mentioned the confusing and cumbersome procedures for their

review of hospital-issued notices of nonqoverage. In addition,
HCFA has failed to incorporate certain policy changes into the

PRO Manual, which is its official reference for operating

policies. A number of the PROs and regional office staff

commented that HCFA policymakers have lacked sufficient

appreciation of the programmatic and resource implications

associated with the PROs' implementation of HCFA requirements.

They cited as an example the lack of adequate pretesting of the

generic quality screens. As one PRO staff person commented,

"HCFA needs more upfront thinking and planning so the PROs won I t

always have to play catch up.


In addition to inadequate short-term planning, HCFA also appears

to have inadequately identified long-term goals and strategies

for the PRO program. In our interviews and review of HCFA

materials, we saw no indication of HCFA having a long-range

perspective on the PRO program. Preoccupied with keeping up with
short-term demands of this complex, dynamic program, HCFA has

been unable to address such long-term strategic issues  as:   What
are future directions for the program? What role should PROs be
playing 5 years from now? How can the PROs best affect the
quality and utilization of health care? How becan the impact of
                                                 addressed is
the PROs be maximized? . That these questions
important for the long-term viability of the PRO program and for

the ability of HCFA to influence its future directions.
As previously mentioned I Congress recently extended the contract

period for the PRO program , which should help HCFA have more time

for program planning. But OBRA 1987 also assigned new

responsibili ties to the PROs. Al though the PROs' broad
responsibilities reflect strong public concern for protecting the

integri ty of the Medicare program I several respondents raised

substantial and legitimate concerns that ever-increasing PRO

mandates could precipitate the program' s implosion rather than

facilitate its improvement.

                         RECOMMENDATIONS



Our review of the PRO program reflected that HCFA has already

taken some important steps in strengthening its communication

with the PROs and other external entities as well as in improving

its contracting processes and data requirements. We commend

these efforts and suggest that HCFA continue to strengthen

communication between its regional and central office     staff, its
programmatic and contracting staff and between itself and the PRO

and external entity communities. We also suggest that HCFA

continue to reduce the volume and complexity of data required of

the PROs , to improve the accuracy, timeliness , and consistency of

that data and to develop strategies and increase resources to

perform comprehensive data analysis.
Our inspection also highlighted several issues related to

evaluation and planning that deserve more attention by HCFA.
Those issues , along with our recommendations and rationales for
those recommendations are included below.
EVALUATION-RELATED ISSUES AND RECOMMENDATIONS


Issues:
     Lack of integration of HCFA' s   evaluation tools.
     Inadequate communication of evaluation criteria to the PROs.

     High degree of PRO/SuperPRO discrepancy.


     Inefficient use of SuperPRO   data.
     Inadequate gradations and outcome measures within PROMPTS-2.
Recommendations:
The HCFA should:


     Improve coordination and integration of its evaluation tools

     (PROMPTS-2, SuperPRO and PRO data reports) to ensure

     comprehensive assessments of PRO performance. This might

     include:
          synchronizing the PROMPTS-2 review with the due dates

          of SuperPRO reports; and


          incorporating SuperPRO results into the PROMPTS-2

          document along with data from PRO reports to maximize

          the comprehensiveness of the evaluation.
Encourage consistency and objectivity in PRO renewal

decisions by:


      establishing rating standards for PROMPTS-2 and for

      acceptable ranges of variance with SuperPRO;


      formally informing the PROs , regional office staff and

      review panel members of the weights to be assigned

      SuperPRO , HMO/CMP , and cost/savings factors; and
      establishing a standing evaluation panel of HCFA

      regional and central office staff to review regional

      recommendations. Participation by PRO staff before
      closed session action would permit discussion of mutual

      questions and concern.
Reexamine the purpose for and the validity of the SuperPRO

review process. This assessment should address such issues

as:
      whether SuperPRO uses appropriate reviewers and

      criteria to render valid judgments about local PRO

      decisions;
      whether SuperPRO is intended to complement PROMPTS-2

      medical review or to duplicate it;
      whether SuperPRO is intended to validate PROMPTS-2

      review decisions. If so , whether its sample size,
      criteria and record selection process permit valid

      comparison; and


      whether there are better ways to use SuperPRO

      expertise , such as having SuperPRO perform onsite
      review and provide technical assistance to those PROs

      most consistently differing from SuperPRO in th

      review decisions or by having SuperPRO assess what

      types of quality problems are being identified by PROs.
Create forums for SuperPRO , HCFA and PRO discussions.


Examine ways to streamline the SuperPRO process to minimize

the administrative burden on PROs and to maximize its

utility to HCFA , such as:


      reducing the sample size for small PROs;


      revising the schedule for reporting results to reduce

      time lag between PROMPTS-2 and SuperPRO reviews; and

      facilitating closer interactions between PRO and

      SuperPRO reviewers in resolving PRO/SuperPRO

      differences.
                        ...




     Improve the PROMPTS-2 process    by:
             developing standards for judging the manner of PRO

             performance, i. e., "Are PRO/provider relationships

             effective       , "Is the PRO successfully tracking
             problems         . 7"

             establishing standards for rating " yes/no"
             acceptability for overall activity category based on

             number of " yes/no" ratings of subcategories; and


             developing more outcome measureS of PRO effectiveness

             through research and demonstrations.


     Develop and release comparative PRO performance data to the

     PROs and other interested parties.

Rationale:
As noted in the introduction to this report, the specific

limitation of HCFA' s evaluation tools has made it impossible for

us or other parties to receive an integrated view of PRO

performance. Because HCFA' s evaluation system is central to its
ability to assess the PROs, either individually or collectively,

it should focus time and attention on strengthening its

individual evaluation tools and integrating them more

effectively.
PLANNING-RELATED ISSUES AND RECOMMENDATIONS


Issues:
     Inadequate lead time for implementing new PRO acti    vi ties.
     Inconsistency among PROs and HCFA regional staff related to

     HCFA policy interpretations.
     Lack of coordination and role clarity among the PROs, fiscal

     intermediaries and carriers.

     Prescriptive nature of the PROs' review activities.


     Inadequate long-range planning by HCFA.
Recommendations:
The HCFA should:


     Develop and distribute requirements , instructions , and

     policies in a more timely manner to allow sufficient lead-

     time for PRO implementation;
    Improve the consistency in policy interpretation among PROs

    and HCFA staff by updating the PRO Manual on an on- going
    basis and by providing training and orientation sessions for

    both PROs and regional staff as needed; and

    Review the current roles of carriers , fiscal intermediaries

    and PROs to assess the appropriateness of the current

    distribution of responsibilities and assess the coordination

    of these entities , such as the timeliness of F. I.

    adjustments.
    strengthen long-range planning of future directions and

    appropriate roles for the PRO program by:
             increasing the emphasis on research and demonstrations

             in such areas as review methodologies, patient outcome

             and severity measures and data system requirements;

             exploring mechanisms to encourage PRO innovations and

             reduce the prescriptive nature of the current review

             requirements;
             exploring better long-term ways of structuring PROs

             acti vi ties so they are cost-effective and complement
             the efforts of other review entities such as state

             medical licensure boards and hospital quality assurance

             committees. For instance, HCFA might explore the
             possibility of having SuperPRO responsible for making

             DRG determinations and having the PROs focus on qual i ty
             review; and


             establishing an advisory group for PRO and other

             relevant entity representatives to provide input to

             HCFA on long-range planning issues.

Rationale:
The PRO program has undergone enormous change since its

beginning. The pace of the program, coupled with a lack of HCFA

staff continuity has contributed to a lack of long-range planning

by HCFA. However, now the program contract period has been
extended to 3 years and PRO contracts will be staggered over the

next 2 years. Therefore , HCFA staff should now have time to

address more long-range planning issues. As mentioned earlier,

HCFA has made important strides in improving communication with

the PRO and external communities. It is imperative that such

input also be sought in determining the future course of the PRO

program.
      p. 



                              APPENDIX I
                               ENDNOTES

      From a speech given by Senator David Durenburger at the

      American Medical Peer Review Association conference on

      May 19 ,   1987.

      The utilization and Oualitv Control Peer Review Orqanization

      (PRO) Proqram: Oualitv Review Activities (Control #OAI-01-

      88-00570), Office of Analysis and Inspections, Office of

      Inspector General, Department of Health and Human Serv ices,
      February 1988 , pp. 17-18.


      Ibid. ,    pp. 18-20.

      Senator John Heinz, "The PRO Funding  Victory: Challenges
      and Growing Expectations,  The AMPRA Review (The American
      Medical Peer Review Association), January/February 1988,

      Andrew Webber, " A PRO Report Card,   The Internist:     Health
      Policy in Practice (The American Society of   Internal
      Medicine), July 1986, pp. 7-9.
      Ope cit., OIG Report Control #OAI-01-88-00570, pp.     10-12.
      Ibid. ,    p. 26.

      Medicare Improvinq Qualitv of Care Assessment and Assurance

      Draft Report , u. S. General Accounting Off ice,
      December 30, 1987 , p. 3-38.


      Ibid. p. 3-31


10.   Ope cit., OIG Report Control #OAI-01-88-00570, pp.     14-15.
11.   This issue was also raised in the previously cited GAO
      report ,    p. 4-30.

12.   National DRG Validation Studv of Unnecessary Admissions to
      Hospitals (Control #OAI-01-88-0080), Office of Analysis and
      Inspections , Office of Inspector General, Department of
      Heal th and Human Services , p. 4.


13.   Medicare Better Controls Needed for Peer Review
      Orqanizations' Evaluation , U. S. General Accounting Office

      GAO/HRD 88-13 , October 1987.


14.   Op. cit., OIG Report Control #OAI-01-88-00570, pp.     10-12.
                               APPENDIX II


                     BACKGROUND OF THE PRO INSPECTION

The Office of the Inspector General (OIG) is mandated by statute

to provide leadership and coordination wi thin the Department of
Health and Human Services (HHS). The OIG is charged with
ensuring the economy, efficiency, and effectiveness of HHS

program operations.
Because of the PRO program' s vi tal role in protecting both the

quality of medical care provided to Medicare beneficiaries and

the financial integrity of the Medicare program, the OIG has

taken a keen interest in and had a close association with the PRO

program since its inception. Among other activities , the OIG has

conducted preaward audits of the PRO and SuperPRO contracts and

of sanction co t estimates for HCFA and has made sanction

determinations on cases referred by the PROs.
The impetus for this inspection of PRO performance grew out of

the Inspector General' s personal interest in gaining a broad

perspective on the PROs' performance during the second scope of

work.
Al though several other entities had reviewed various elements of
the PRO program (see appendix VII), no one had undertaken a broad

evaluation. Hence , in the fall of 1986 , the Inspector General

asked the Office of Analysis and Inspections to conduct an

inspection of the PRO program in the spring and summer of 1987.
In addition, the OIG' s Office of Investigations asked us to

incorporate a review of the sanction process into our overall

inspection. We designed the PRO inspection to integrate some

original PRO data collection and analysis with other existing

PRO-related data collected from primary and secondary sources.
Because of other OIG priorities, completion of the PRO inspection

fieldw9rk was delayed until the fall of 1987.
We designed this PRO inspection to provide the Inspector General

and other departmental officials, policymakers, and the public

with a broad perspective on the PRO program and how it has

changed over time.
In addition to this inspection, the OIG has done and continues to

do other work related to the PRO program. The following is a
summary of some key audits and inspections.

Past Work


             Review of Financial Operations of Peer Review Organiza­

             tions (Audit No. 14-62158), which concluded that most
             PROs made a sizable profit on their initial contracts

             and recommended administrative and fiscal procedures

          for HCFA to incorporate into its management of the PRO

         program.
         Inspection of Inappropriate Discharges and Transfers,
         March 1986, which concluded that many PROs had not

         effectively used the authorities or processes available

         to address poor quality of care associated with pre­

         mature discharges and inappropriate transfer. The
         report included recommendations regarding HCFA' 

         reporting and evaluation systems and suggested that

         the PROs be given authority to deny payments for

          substandard care.
         Report on Evaluation of California Medicare Review

          Inc.        (CMRI) Price Proposal for Development of 43
         Sanction Cases (Audit No. 09-61658), September 1986,
         which concluded that HCFA failed to include reimburs­

         able sanction activities in its fixed- price contracts

         wi th the PROs. The report recommended that HCFA: (1)
         provide guidance to all PROs on the reporting of and

         accounting for sanction costs; (2) require all PROs to

         establish adequate cost accounting systems for

         summarizing the costs of sanction activities; (3)
         ensure all PROs develop and implement bid-estimating

         procedures that more reasonably reflect the estimated

         costs of performing sanction activity; (4) ensure that
         all PRO contracts contain the n cessary cost-reimburse-
         ment provisions required by- the Federal acquisition
         regulations (FAR) before initiating any reimbursement
         of sanctions; and (5) require CMRI to provide an

         accounting of          unds advanced for sanction activities

         and return any excess funds to the Federal Government.

         A subsequent report (Audit No. 09-8661662) was issued

         in May 1987 on CMRI' s price proposals for its first 117
         sanction cases. That report reinforced the recommenda­
         tions of the first report and also recommended that

         HCFA issue modifications to the PROs' fixed- price
         contracts to make only the PROs' incremental sanction

         costs reimbursable.


Current Work


          The Region VII Office of Audit is conducting a national

          cost-benefit analysis of five types of PRO review

          including retrospective admission, DRG validation, day

          outlier, cost outlier, and preadmission. The audit is

          focusing on 14 PROs and is expected to be completed

          soon.
          The Office of Analysis and Inspections (OAI) is
          coordinating the national DRG Val idation study, an

          analysis of medical record data collected from 239 PPS

hospi tals (for the period October 1, 1984 to March   31,
1985) for DRG validation and identification of quality

of care problems. The OAI central office staff are
coordinating the review but regional staff are respon­

sible for analysis of the PRO-related data on DRG

validation.  That PRO-related report is expected to be
completed by this fall.
                          APPENDIX III


                  BACKGROUND OF THE PRO PROGRA

Creation of the PRO Proqram


The Utilization and Quality Control Peer Review Organization

(PRO) program was created by the Peer Review Improvement Act of

1982 , Title I, subtitle C of the Tax Equity and Fiscal Respon­
sibili ty Act of 1982 , Public Law 97-248.

Peer Review organizations (PROs) succeeded Professional Standards

Review Organizations (PSROs) in the provision of Medicare peer

review.   The PSRO program had been established by Congress (in
Part B of Title XI of the Social Security Act) in 1972 to ensure

that health care services provided under the Medicare, the

Medicaid, and the Maternal and Child Health and Crippled

Children' s programs were " medically necessary, conformed to
appropriate professional standards , and were delivered in the

most efficient and economical manner possible. ,,1 The PSRO
program was a response to increasing Medicare and Medicaid costs

and the failure of existing utilization and claims review

mechanisms to deal with widespread inappropriate usage of health

care serv ices.
The congressional rationale for replacing the PSRO program with

the PRO concept was based on the fact that the PSRO program had

"been faced with certain structural problems: overregulation and

too detailed specification in laws (had) restricted innovation in
new approaches to review. " 2

The PRO legislation emphasized greater accountability by requir­

ing PROs to have performance-based contracts with specific

measurable objectives. (For the complete PRO statute , see

42 U.  C. Sec. 1320C.    The PRO legislation addressed concerns

about the potential negative incentives' of the prospective
payment' system (PPS) for increases in hospitalizations and
reductions in the quality of care provided to Medicare

beneficiaries.   Compared with former cost-reimbursement systems,
PPS gave hospitals much stronger incentives to increase Medicare

payments by increasing their number of admissions and to reduce

costs by limiting services or discharging patients earlier.
Hence, the PROs were charged with monitoring the system to

protect against potential provider abuses such as unnecessary

admissions , substandard care, and premature discharge.
In authorizing the Secretary of the Department of Health and

Human Services to enter into contracts with PROs, Congress
specified that such organizations must be composed of or have

available to them a substantial number of licensed doctors of

medicine or osteopathy who are practicing in the area.  Hence,
the PRO program is composed of both physician-sponsored and

physician-access organizations.
First Scope of Work    (1984-86)
The PRO program was implemented in 54 states and territories

through 2- year, fixed- price contracts with " peer review
organizations. " Each of the 50 States , the District of Columbia

Puerto Rico, and the Virgin Islands was designated as a separate

PRO area. Guam , American Samoa, the Northern Marianna Islands,
and the Trust Territory of the Pacific Islands were designated a

single PRO area.


The first contracts, which became effective over a 5-month period

from July to November 1984, emphasized detection of inappropriate

utilization and payments under the new PPS system. To that    end,
contract goals included reducing unnecessary admissions, ensuring

that payment rates matched the diagnostic and procedural

information contained ' in patient records, and reviewing patients
transferred or readmitted wi thin 7 days of discharge to determine

whether readmission was for the same condition as the first

hospital visit. In addition, each PRO contract included at least

five objectives: reducing unnecessary readmissions because of
substandard care during the prior admission, ensuring the

provision of medical services critical to avoidance of

unnecessary patient compl ications, reducing un­

necessary surgery or other invasive procedures, reducing the rist
of mortality, and reducing avoidable postoperative or other

complications. The PROs were also expected to develop and

analyze Medicare patient data to identify instances and patterns

of poor quality.


When the PROs identified problems with given physicians or

hospi tals, they were expected to address those problems through

education and consultation, intensified review, or denial of

paYment for care that was not reasonable or was provided in an

inappropriate setting. The PROs were also authorized to recom­

mend the sanction of physicians or providers in cases of a

 substantial violation" in a " substantial number of cases " or a

 gross and flagrant" violation even in a single case.   Such cases
were referred to the Inspector General' s Office for review and

sanction determination. (A further discussion of the sanction
process appears later in this appendix.


Second Scope of Work    (1986-88)
During the first contract period, several entities , including the

General Accounting Office, the Inspector General of the Depart­

ment of Health and Human Services, and the Rand Corporation,

studied the PROs' performance and recommended that their quality

review be strengthened. (See appendix VII for a summary of PRO-
related studies. ) In response to these findings and general
pressure from wi thin and out of the Department , HCFA strengthened
the quality review requirements in the second PRO contracts which

began in July 1986. In  those new contracts , the 44 PROs that
were responsible for review in the 54 PRO areas (see
appendix VIII for a summary of PROs with more than one contract)
had the following requirements:
          review of readmissions to the same hospital within 15

          days;
          review of a sample of discharges to assess whether

          there was evidence of premature discharge or transfer;


          review of hospitals with unexplained statistical

          outliers in the PRO data on high mortality rates or

          utilization patterns;


          application of a standard set or quality-related

          criteria (called  generic quality screens) to all cases
          selected for PRO   review.  These six generic quality
          screens included adequacy of discharge planning,

          medical stability of . patient at discharge, deaths
          nosocomial infection, unscheduled return to surgery,
          and trauma suffered in the hospital; and


          development and implementation of community

          outreach programs.


Thus , the second scope of work intensified the PROs ' review
requirements. In addition  to generic quality. screens , all
records selected for retrospective review for any reason were

also subjected to admission review , DRG validation, coverage

review , and discharge review. (See appendix IV for a summary of
PRO activities for the second contract period.


The Senate Finance Committee staff in a background paper,
 Quality and Access to Health Care Under Medicare' s Prospective

Payment System " noted that "these changes in the PRO review

effort were designed to increase detection of premature

discharges; to improve review of care in the hospital, particu­

larly the detection of situations where under-service may impact

the quality of patient cases; and to improve the patients' under­

standing regarding their rights and appeals under the system.
" 3


(See appendix V for a summary of the differences between the

first and second scopes of work.


COBRA and OBRA 1986 provisions:


The PROs' responsibilities were substantially increased through

provisions of the Consolidated Omnibus Budget Reconciliation Act

of 1985 (P. L. 99-272, commonly referred to as COBRA) and the
Omnibus Budget Reconciliation Act of 1986 (P. L. 99-509 , commonly
referred to as OBRA 1986).   The COBRA legislation required the
implementation of preadmission review for 10 surgical procedures

and preprocedure review of any cases involving assistants at

cataract surgery. It also gave PROs the authority to deny

payment for quality of care concerns, with the expectation that

this authority would complement rather than conflict with the

PROs' sanction authority. The OBRA 1986 legislation extended the

PROs ' review from only inpatient hospital settings to ambulatory
and posthospital settings. Over the next several years , the PROs

will be expected to review care delivered in hospital outpatient

departments, ambulatory surgical centers , skilled nursing

                                                   ices.
facil i ties , home health settings , and doctors' off
addition, in certain States, PROs are performing quality review

of health maintenance organizations (HMOs) and competitive

medical plans (CMPs). (See appendix VI for a sumary of COBRA
and OBRA 1986 provisions.


Visibility and Vulnerability of the PRO Proqram


As reflected in the legislative history, the scope of the PRO

program significantly expanded after its inception. That

expansion has been accompanied by extensive scrutiny from many

oversight entities within Government and from provider and

consumer groups outside Government. To date, Congress has held

numerous hearings related to the PRO program and numerous

research and oversight entities have conducted PRO-related

evaluations (see appendix VII) .
The complex identity and inherent vulnerability of the PROs were

sumed up by one PRO spokesman:
     It is clear from my vantage point that PROs are quickly

     becoming all things to all people.... The Inspector
     General of the Department of Health and Human Services

     is searching vigorously for a policeman of the

     marketplace. The Executive Office of Management and

     Budget is looking hard for cost contai ment services,
     particularly to hold the line on Medicare admissions.
     The Medicare beneficiary community earnestly desires a

     protector of quality as the incentives of diagnosis

     related group (DRG) payment and capitated arrangements

     invi teunder-service.  Heal th care consumers seek ready
     access to the information that review activities can

     generate. How else will a competitive marketplace

     work? Local practicing physicians remain wedded to a

     responsibility to monitor and evaluate their own

     practice behavior. All this and more for one fifth of

     1 percent of the Medicare hospi tal trust fund (the PRO

     budget for a single year) . . . . Can there be any doubt
     that PROs will surely fail on someone' s scorecard?4

The PROs' Ouality ReVlew and Intervention Procedures


As part of their ongoing quality assurance efforts, the PROs draw

a sample of hospital records for a review of both quality and

utilization elements.   Those records are reviewed on a case-by-
case basis, using six HCFA- generated generic quality screens and

discharge criteria, as well as PRO-specific screens. The PROs
employ nurse reviewers , or other health care professionals, to

perform the initial review of records. They refer any potential

quality cases to physician reviewers for final determination.

The PROs also identify potential quality problems through

 profiling, " in which they use their data system to identify
patterns of inappropriate care.
Once the PROs have determined that a qual i ty problem exists   they
are required to initiate corrective action which may include    the
following:  intensified r view , alternate timing of review
education, and sanctions.


Intensified review involves sampling a larger percentage of a

particular physician' s or provider' s records (often 100 percent)
in the subsequent quarter to verify whether or not the identified

problem has continued. Intensified review may also be used after

contact with the physician to ensure that the particular problem

has been corrected.
Although most PRO review i done on a retrospective basis, the

PRO may choose to alter the timing of that review to address

particular problems.  For instance, if a physician has a large
number of unnecessary admissions , the PRO might initiate

preadmission review of the physician' s patients.


The PRO may also require that a doctor enroll in continuing

medical education. This could include the physician' s taking

specialized courses or possibly retaining a physician consultant

to rev iew his or her cases.


If the PRO determines that corrective action has failed to

address the quality problem adequately, the PRO is expected to

recommend the physician or provider for sanction. 5


The Sanction Process


The Secretary of Health and Human Services is authorized to

impose sanctions on Medicare-reimbursed physicians or providers

if they have " grossly and flagrantly" violated or " substantially"
failed in a " substantial number of cases" to comply with their

statutory obligations to provide (1) services " economically and
only when, and to the extent they are medically necessary,     (2)
services that are " of a quality which meets professionally
recognized standards of health care, " and (3) services that are
properly documented. The Secretary may impose one of two

      ".



sanctions:   (1) a monetary penalty for no more than the " actual
or estimated cost of the medically improper or unnecessary

services so provided" or (2) exclusion from the Medicare program

for a specified period of time.   (For detailed sanction
provisions , see 42 U. C. Sec. 1320C-5.
The PRO must provide the practitioner or provider with

 reasonable notice and opportunity for discussion" before making

its recommendation to the Secretary. Under the regulations,

(42 CFR part 1004) the provider or practitioner is entitled to an

opportunity to submit additional information and/or meet with the

PRO to discuss an allegation of " gross and flagrant" viola­

tion (s). with an allegation of " substantial" violations , the
physician or provider is entitled to submit additional informa­

tion and to receive two notices of potential violation and two

opportunities to meet with the PRO. In either case, if the PRO
recommends the imposition of a sanction , the physician or

provider must be given 3P days' notice and an additional oppor­

tuni ty to submit written comments to the Secretary.


The Secretary has delegated the authority for sanction determina­

tions to the Office of Inspector General (OIG). Upon receipt of

the PRO' s sanction recommendation , the Inspector General must

determine whether he agrees with the recommendation and whether

the physician or provider has "demonstrated an unwillingness or

lack of ability sUbstantially to comply with statutory obliga­

tions. The Inspector General may accept , rej ect, or modify the
sanction recommendation forwarded by a PRO. In cases where the
PRO has recommended exclusion, the OIG must act on that recommen­

dation within 120 days or the exclusion automatically goes into

effect pending final determination by the OIG.
The peer review statute and implementing regulations related to

the sanction process have attempted to balance the competing

priorities to protect both the rights of Medicare beneficiaries

to receive high- quality care and the rights of physicians and

providers to receive adequate due process.   That delicate balance
has meant that although a physician or provider has had an

opportunity to have at least two administrative entities (the PRO

and the OIG) review a case prior to the imposition of a sanction

the process has deferred a full evidentiary hearing until after

the sanction has been imposed. 6


The PROs' sanction procedures have precipitated ongoing debate

among all parties associated with the PRO program. Organized
medicine has argued vociferously that the PROs should provide

physicians and providers with stronger due process protection.
In response to such concerns , HCFA and the OIG held discussions

last spring with the American Association of Retired Persons

(AARP) and the American Medical Association (AM) and developed
sanction procedures that strengthened PRO notice procedures

clarified the role of an attorney for the physician or provider

at the PRO discussions , ensured that physicians or providers

would be provided records of the PRO proceedings , and permitted

expert witnesses to provide relevant medical evidence at the PRO

discussions with the physician or provider.
Over the last year, both organized medicine and Medicare benefi­

ciaries from some affected communities have also argued that the

sanction process has adversely affected rural communities since

sanctioned physicians and providers have been excluded from the

Medicare program pending their ALJ hearings. Such concerns led

to a recent legislatively mandated requirement (Section 4095 of

the Omnibus Budget Reconciliation Act of 1987 , P. L. 100-203

commonly referred to as OBRA 1987) for ALJ review prior to the

imposition of an exclusion for any physician or provider who is

practicing in a " rural health manpower shortage area" (HMSA) or
in - a county with a population of 70, 000 or less , unless it is
determined that the physician or provider poses a " serious risk"
to Medicare beneficiaries. In addition, ' Congress has directed
the Secretary of HHS to conduct a year-end study of how the PROs

new standardized due process procedures have impacted the PRO

program.
As of December 31, 1987 , the OIG had received 151 referrals from

38 of the 54 PRO areas.   For a detailed discussion of sanction
issues and statistics , see our recent report on the PROs'
sanction activities.
Administration and Oversiqht of the PRO Proqram

The HCFA is responsible for administering and overseeing the PRO

program through its Office of Medical Review in the Health

Standards and Quality Bureau (HSQB). These functions are shared

by central and regional office  staff. The former group is
responsible for establishing the operational and evaluation

policies and mechanisms for the program and for negotiating the

PRO contracts. The latter group is responsible for implementing

program requirements and providing regular oversight and techni­

cal assistance to the PROs in their respective regions.
Since the inception of the PRO program, both HHS and HCFA

leadership have changed. In response to substantial concerns
raised about their predecessors' management of the program, the

Secretary of HHS and the Administrator of HCFA have met periodi­

cally since 1986 with physician, hospital, consumer, and PRO

representatives to hear their concerns about and suggestions for

improving the PRO program. In response to those meetings , a " PRO
action plan " has been developed to improve both HCFA' s management

of the program and the PROs' performance and effectiveness. The
action plan has serVed as a resource for HCFA in its ongoing

efforts to strengthen the PRO program.
The HCFA has faced numerous challenges in overseeing the PRO

program. Like the PROs, HCFA has responded to competing expecta­
tions from wi thin and outside the Government. For instance, HCFA
has juggled pressures to make the PROs accountable for quantifi­

able outputs with those to give the PROs the proper flexibility

to carry out their mission in an efficient and effective manner.

In addition, HCFA has had to balance the expectation that

addi tional PRO provisions (such as COBRA and OBRA) would be
implemented quickly with the pressures to follow formal mechan­

isms. All   the while allowances had to be made for the limita­
tions of available quality review technology. The HCFA has also
had to juggle its mandates to carry out congressional intent for

the PRO program and to operate within the apportioned funding

levels prescribed by the Executive Office of Management and

Budget.
During the second contract period, HCFA has used three mechanisms

for evaluating PRO performance. For ongoing monitoring of their

activities , HCFA has required the PROs to submit over 20 separate
reports , 90 percent of which are submitted either monthly or
quarterly.   For more overall evaluation of the PROs , HCFA employs
the PRO Monitoring Protocol Tracking System (more commonly

referred to as PROMPTS-2), which HCFA regional staff administer

twice during the course of the contract period. PROMPTS-2 is

structured to assess the PROs' performance in 17 different areas

such as medical review activities , community outreach , data

requirements , sanctions , and management internal control through
a series of yes/no questions. As part of the PROMPTS process
HCFA regional office staff draw samples of cases reviewed by each

PRO to validate the PROs ' determinations.
In addition to the regional staff review of PRO ae erminations
HCFA has contracted with Systemetrics, Inc. (more commonly

referred to as SuperPRO) since the PROs ' first contract period to

biannually re- review a sample of approximately 400 cases from
each of the 54 PRO areas. In its   blind re-review of these cases
SuperPRO uses the generic quality screens required by HCFA along

with the PROs' individual criteria and then compares its deter­

minations to those previously made by each PRO. More specifi­
cally, SuperPRO validates the PROs' admission review , discharge

review , DRG determination, and quality review determinations and
assesses the PROs ' medical review criteria and the appropriate­
ness of referrals made to PRO physician reviewers by their nurse

reviewers.   SuperPRO issues draft and final reports of its
findings to HCFA and the PROs and regional HCFA staff are

expected to follow-up on discrepancies identified between PRO and

SuperPRO determinations.

The PROs' Relationship to HCFA' s Fiscal Intermediaries and

Carriers.
In addition to its contracts with the PROs , HCFA contracts with

two other types of entities that are important to the PRO

program. Fiscal intermediaries (FIs) process claims for services
covered by Medicare Part A, including inpatient hospital, skilled

nursing home, hom health, and hospice services. Carriers
process claims for services covered by Medicare Part B including

physician, and laboratory and diagnostic services. Like the
PROs, the carriers and FIs are both required to conduct utiliza­

tion review activities, and the intermediaries are required to

conduct quality- related reviews of skilled nursing facility and

home health claims.


The PROs are dependent on the fiscal intermediaries to forward

them the hospital billing information which triggers the PROs

selection of cases for review. The FIs are also expected to make

appropriate payment adjustments based on the PROs ' DRG determina­

tions.  In addition, the carriers are expected to make adj ust­
ments to physician billing in response to all hospital and

skilled nursing facility denials forwarded to them by the FIs.
As the PROs begin to conduct nonhospi tal reviews, their need for

close coordination with the carriers will intensify.
Al though the FIs and carriers are overseen by a different bureau
within HCFA than the one responsible for the PROs, it is

obviously important for HCFA to ensure tne close coordination of

these review entities.

                                                        ENDNOTES


Federal Reqister , Vol. 49, No. 39, February 27 , 1984

p. 7202.

Tax Equity and Fiscal Responsibility Act of 1982, Commerce

Clearing House , Inc. p. 37D. Senate Report, 97-494 at 41.

"Examination of Quality of Care Under Medicare' s Prospective

PaYment System , II Hearing before the Committee on Finance,
Uni ted states Senate, June 3, 1984, p. 44.

Andrew Webber II A PRO Report Card  The Internist: Health
Policy in Practice (The American Society of Internal

Medicine), July 1986 , pp. 7-9.

Material on the PROs ' quality review process was taken from

the Conqressional Research Service Report for Conqress: The

Peer Review Orqanization Proqram , The Library of Congress,

October 23,                  1987 , pp. 20-21.
Material for the description of the sanction process was

taken from the transcript of Inspector General Richard

Kusserow' s testimony at a hearing before the Subcommittee on
Intergovernmental Relations and Human Resources, Committee

on Government Operations                   , united States
                                         House of Representa­
tives , October                     20,. 19&7.
The Utilization and Qualitv Control Peer Review Orqanization

(PRO) Proqram: Sanction Activities (Control # OAI-Ol-88-

00751), Office of Analysis and Inspections , Office of

Inspector General, Department of Health and Human Services 


March 1988.
  -
  ;
  , .                :_- ---.__.                      ..--- ......    .._.,.




                                                                               APPE;\DIX IV
                                                             PRO ACTIVITIES

                                                                     Second Scope of Work
                                                                         (198&-1988)

I (A) DISCHARGE                (8) GENERIC QUAUT                          (C) DRG VAUDAT10N                     (D) ADMISSION             (E) COVERAGE
     REVIEW                         SCREENS                                    -.r.  CO                             REVIEW                      BEEW
. -dtec                        -diSCarge planning
                                                                                -c pa)'ta
                                                                                -PPS                                 4818.                     -.nt
                                                                                                                                               fIre
  premature/
  diges                        -ds
                                   edic stilit
                               at diSCarge

                               ..W8ia inons
                                          ule nrm to surgery
                                                                                8ttion
                                                                                f'uiremems                           .:e
                                                                                                                     meic
                                                                                                                                               ttrnan

                               -tuma in


   RETROSPECTIVE                                                                       OTHER ACTIVITIES
        1. Re        3% random .aple from e.ch PPS hoitl
           Induding a 6 mont report of short -ys (1-2 days)
                                                                                             18.      pr da r8 qua
                                                                                                   D8 ab
                                                                                                   id                  of
                                                                                                                       pr,
                                                                                                                                       on a             bas to

        2. Reew.n cas rerred by the Fisc Inrmiary for                                                  comunit ouealeucn prras
              OOrage isaues
        3. Review all   cas Identied by the Meice             Coe Editr
                                                                                             20. Implment
                                                                                             21. Impl HCA
                                                                                                   quait 1881 are

                                                                                                                        ap
                                                                                                                        idnt      an t8e   ne cove
                                                                                                                                                -pi whnever

              (9 ICD-9 coes)                                                                       acons:
                                                                                                          education
        4. Review an percutneous lithotripsy claims in hospitals with
                                                                                                          Intensiied review
              .xvacorporeal shocave litotripters                                                          uncton
        5. Reew an submitted claims adjustments resulting in a higher                        22. Mae waivr of liabilty determinatons
              weighted DRG (review prior to payment)
        6. Review 15% random sample of discharges from PPS exempt
                                                                                             23.   Re      HMOs and CMPs for quality and approprateness o
                                                                                                   Inpatient and     outent
                                                                                                                       servces (COBRAOBRA)
           hositls and swing be unit to which beneficiary directly
              admited"                                                                       24. Reew wren coplaint             by beneciares conceming qualir:.
                                                                                                   of cae at hosits. SNFs, home        heal agencies, and
        7. Review    all transfers from PPS to other PPS hospitals                                 HMO/CMPs(OBRA
        8. Reiew SO% random sample of day and oost outliers
        9. Conduct     fose DRG reviews: 46. 46.                                       PENDING ACTIVITIES
        10. Review notices of non0(rage issued by PPS and                                           Reew ten surgica prOOures on preadmisson!
              non-PPS hospitals:                                                                    p!eprOOure bas to determine medical nessity
               100\: of cases where physician disagrees                                             (CORA)
               100\: of cases where patient disagrees                                               Deny payment for substandard quality of care (COBRA
               100% of cases of patient cost liability
               10% random sample of remainder                                                       Reew alille nursng        facilits and home health agencies
        11. Conduct Intensified Review when hospitl          reaches
                                                                                                    for quality of ca. (OBRA)
            6 cases or 5% trigger error rate                                                        Prde infor on spfic cas or patterns of sub.
                                                                                                    atard ca. to 8te licensing.
        12. Review 10% or 120 discarges in quarer for validation of
              obecivs-                                                                               acittin bos (OBRA)
                                                                                                    aI
                                                                                                                                stte certication, or natlor-



        13. Recaeall related readmissons       days from a PPS
                                                   wiin 15                                          Re ..rvl proed In ho
                                                                                                    me an ambulatry surgery     O\tient depar­
            ac                                                                                                              ceters
            Inat admi88ona red admiuions
                      be to any ace hospit (pPS or non.PPS) for

        14. Re all cus wi no
                                                                                                    Couc sml ar
                                                                                                    (OB
                                                                                                                             Mas in at I8
                                                                                                                                                COBRA

                                                                                                                                               twlv   PR areas
        15. P8rfrm 5 obecs to eliminate             adv
                                                     outmes (by                                     Ae  all readml88a
                                                                                                    PP hol fo
                                                                                                                                wiin 31   days to PP    an no.
            generic aeen, by prder/practtioner. and by DRG)                                                        Inprope   admiaana an reew an,
            an reuc
              pr/praconr,
                          unnery      admi88onl an prOOures (by
                                  and by DR)
                                                                                                    Inrving ca prde      In hos. alille nursng
                                                                                                    falites or outint dlpa, fo
                                                                                                    In afr Jaua 1, 1887 (OBRA
                                                                                                                                               co
                                                                                                                                           entered

        16.   Re   transfers to non- PPS, exempt distnct unit of acue
              hoitls­
               50 radom saple to Ning bes
               50 ranm saple to excluded aloool/dNg abuse unit                         KEY                Admi88 an OOrage           re       only
               2S% random    saple to excluded rehablitation unit                                         In lieu of PR validatin, f8ew meica nessty
               To excluded   psyc unit:                                                                   an lengt of sty
               100% of recrds showing invalid ICD-9 coes
               100% of recrds showing organic brain conditions                                      -- Reew for ap.propriateness of transfer , admissior
                                                                                                          and length Of sty, ss well as determining the medica:
               10% random sample of remainder                                                             necssity of length of sty. Do not perform DRG
                                                                                                          validation
    PROSPECTIVE                                                                                     -.. Discntinued during       the aend     scpe of work
  I .   17. Preadmission review of pacemaker and 4 procdures
                                                                                         Noe:       This chart was cre.ted by Region I DHHS/OIG/OAJ
            propose by PRO that add up to 2. 5% of sttewide                                         in consulttion wih HCFA.
            discharges.
        18. Reew all cases wi assstnts to cataact surgery to
            "'_6__          ;.A___.... -' . ....i--
                                      APPENDIX V

             COMPARISON OF 1984 SCOPE OF WORK TO 1986 SCOPE OF WORK

       Review Area
                   1984                   1986
Objectives                  3 Admission Objectives    5 Obj ecti ves
                            5 Quality Objectives
     Based on PRO data

                            All proposed and vali­
   from first 90 days

                            dated by PROs. Very       of generic quality

                            limited areas for
        screen review.
                            focusing objectives       HCFA-identified
                                                      outl iers .
                                                      Broader obj ecti ves
Random Samples              5% Admission Sample
      3% random sample

                            DRG Sample ranging
       (includes 1- and 2­

                            from 3% to 100%
          day stays)
                            based on hospital

                            discharge size
Preadmission Review
        5 Procedures proposed
    Pacemakers plus 4

                            by PRO
                   procedures pro­
                                                      posed by PRO

Pacemakers                  100% retrospective
       100% preadmission

                                                      (see above)

Transfers                   From PPS to another
      Same but lower

                            hospi tal,   exempt       level of rev     iew
                            unit ,   swing bed
Readmissions                All readmissions
         All readmissions

                            within 7 days
            within 15 days

Medicare Code
              100% of 9 diagnoses
      Same
Edi tor
Focused                     468                       468, 462, 088

DRGs                        (462 added during
                            contract period)

Outl iers
                  100% (reduced to 50%
     50%
                            during contract
                            period)
Percutaneous                Not in contracts
         Review all claims

Li thotripsy                                          for percutaneous

                                                      lithotripsy in

                                                      hospitals which

                                                      have an extra­

                                                      corporeal shock wave

                                                      lithotripter
     Review Area
               1984                     1986

Validation of           Not in contracts
         Sample of one

Objectives                                        quarter' s dis­
                                                  charges to validate

                                                  obj ecti ve performance
Hospi tal   Notices     100% where patient
       Same
                        or physician dis­

                        agrees.  100% where
                        patient is liable.
                        10% of remaining

Special ty   Hospital   Proposed by each PRO
     15% of discharges

Review
Admission Pattern
      Discontinued during       Not in Scope of Work

Moni toring             contract
Intensified Review
     Tr igger:                 Trigger:
                          5% or 3 cases
          5% or 6 cases

                        (whichever is greater)
   (whichever is
                        of cases reviewed
        greater) of cases

                        Review increased to:      reviewed. Review
                        100% or subsets
          increased to: 50% or

                                                  subsets (first quarter;
                                                  100% or subsets (two c:
                                                  more consecutive

                                                  quarters)
Communi ty   Outreach   Not in contracts
         All PROs to propose

                                                  program
                                                  *All cases reviewed

                                                  are subject to generic

                                                  qual i ty     screens,
                                                  discharge rev iew ,
                                                  admission review , DRG

                                                  validation, and coveras
                                                  review.

Source:     HCFA
                           APPENDIX VI
                  SUMRY OF RECENT PRO-RELATED
                       LEGISLATIVE PROVISIONS

     STATUS OF IMPLEMENTATION OF COBRA 1985 PROVISIONS


Assistants at Cataract Surqerv


          Provides that no Medicare payment may be made for an

          assistant surgeon at cataract surgery unless carrier or

          PRO approves use of assistant before procedure is

          performed. Also prohibits physician from knowingly and
          willfully billing Medicare beneficiary if he or she has

          not obtained prior approval and where presence of

          assistant surgeon has been found to be unnecessary.


          Instructions for PRO review of this activity, effective

          wi th assistants proposed to be used after March 

          1987 , were issued to PROs on December 30, 1986, and
          review has been implemented.

PRO Denials for Substandard Care


          Provides for denial of payment when a PRO -determines
          that the quality of health care services rendered to a

          Medicare beneficiary fails to meet professionally

          recognized standards of health  care.  Also specifies
          that denials for care of substandard quality shall be

          made only on the basis of criteria that are consistent

          wi th guidelines established by the Secretary.


          Formal rule-making process is being    followed.
                                                         Regula­
          tions are in the final stages of departmental clearance

          and will be published soon.
PRO 100 Percent Preprocedure Review


          Requires peer review on a preadmission/preprocedure

          basis of nonemergency cases for at least 10 surgical

          procedures.  Second opinion will be required if PRO
          cannot make determination as to medical necessity of

          services.
          Formal rUle- makingprocess will be     followed.
                                                        Proposed
          regulations are still in process of departmental

          clearance.
STATUS OF IMPLEMENTATION OF OBRA 1986 PROVISIONS

    Review of services provided in hospital outpatient

    departments and ambulatory surqical centers   Effective
    for PRO contracts entered into or renewed on or after

    January 1,                 1987.
                      This provision has been implemented
    by the Pennsylvania PRO, which entered a new contract

    period on July 1, 1987. It will be implemented by

    other PROs as they enter their next contract periods.


     Review of hospital denial notice   Implemented on

     December 1, 1986, as required by the statute.
     FIs must provide PROs with "timelv" monthlv informa­

     tion. or hospitals will be reauired to provide such

     information directlY to the PROs   Effective April
     1987.
     Review of at least a sample of readmissions occurrinq

     wi thin 31 days of discharqe and any interveninq post­
     hospi tal care   Effective for contracts entered into or
     renewed on or after January                 1, 1987.
                                            This provision
     has been implemented by the Pennsylvania PRO and will

     be implemented by the other PROs as they enter their

     next contract periods.


     A reasonable proportion of PRO funds must be allocated

     to review of auality of care provided in all settinqs

     The HCFA has no plans ' for separate implementation of
     this provision. It will be implemented as part of

     other OBRA provisions.


     Review of HMOs/CMPs   The HCFA published a listing of

                                           Federal Reqister

     States to be competitively bid in the 


     on January 5,                     1987.
                          Contracts have been awarded in
     those States where it is                  applicable.
                                           Review began July
            1987
     The Secretary is to identifY and make available to PROs

     methods of identifyinq those cases that are more likel 

     than others to be associated with substandard quality

     of care. and to provide at least l2 PROs with data and

     data processinq assistance to perform small-area

     analysis Both provisions effective upon enactment.
     The first is an ongoing acti vi ty . The HCFA has

     contracted with the American Medical Review Research

     Center (AMC) for. the small-area analysis which will
     utilize feedback from 12 pilot PROs. Information is
     presently being gathered.

          PRO boards must include at least one consumer

          representative               Effective with contracts entered into
          or renewed on or after January 1, 1987. Officially
          implemented with new contracts, but most PROs have

          already implemented this provision.


          PROs must respond to beneficiary complaints about poor

          aualitv care provided in all settinqs   Implemented
          October 1,          1987.
                            PROs had already been required to
          respond to complaints referred to them and will

          continue to do so. Clarifying regulations in process.
          PROs will be reauired to share (when reauested)

          information relatinq to substandard care with State

          licensure or certification bodies and with national

          accreditinq bodies   Effective April 1, 1987. Clarify­
          ing regulations in process regarding exchange of

          information with licensure boards. Clarifications
          regarding exchange with state Medicaid agencies have

          been publ ished .
          Hospi tals. home health aqencies. HMOs. and skilled

          nursinq facilities will be reauired to have aqreements

          with PROs. under which costs of PRO review activities

          are to be paid bv the Secretary to the PRO   Effecti ve

          October 1, 1987.
Source: HCFA/HSQB/OMR.


     Other PRO-Relevant Leqislation


          The Medicare and Medicaid Patient Program Protection

          Act of 1987 greatly expanded the sanction and civil

          monetary penalty authorities under the Medicare and

          Medicaid programs. The bill also required the report­

          ing of all disciplinary actions made by state medical

          licensure boards.


          The recently enacted 1987 Omnibus Budget Reconciliation

          Act has made the following PRO changes:
                three- year            PRO contracts with staggered expiration
                da tes ;
                a ban on informing Medicare beneficiaries and

                fiscal intermediaries of payment denials before

                offering providers or physicians the opportunity

                for reconsideration;


                                   Federal Reqister of the

                publication in the 


                standards used for evaluating the PROs and any ne

policy or procedure that substantially affects the

performance of contract obligations; and


negotiation of appropriate contract modifications

before implementation of additional review

functions not included in the initial or renewed

contract;
provision by the Secretary of regular performance

reports to each organization comparing its

performance with other PROs'


a prohibition of automatic renewals of PRO

contracts held by out-of- state groups, provided

in-state physician groups wish to compete;


requirement that the hospital notify the Medicare

patient when the hospital requests PRO review

because the hospital and the attending physician

do not agree that inpatient care is no longer

necessary;
a ban on physicians billing Medicare patients for

assigned claims denied for payment on grounds of

substandard qual i ty
a requirement that PROs ,. in establishing review
standards , take into account the special problems
associated with delivering care in remote rural

areas , the availability of service alternatives to
inpatient hospitalization , and social factors that

could adversely affect the safety or effectiveness

of outpatient treatment;


mandatory onsite review in at least 20 percent of

rural hospitals in a review area;


requirement that PROs offer for PRO physician to

meet several times a year with medical and

administrative staff of hospitals in their review

area;
requirement that PROs publish and distribute to

providers and practitioners, at least annually, a

report describing the types of cases the PROs

frequently determine involve inappropriate or

unnecessary care, services rendered in an

inappropriate setting, or substandard care;
assessment of access provided to Medicare

enrollees in risk- sharing HMOs and CMPs and
                mandatory beneficiary outreach to inform enrollees

                about the role of the PRO and their rights;

                a provision encouraging PROs to use physician

                specialists in initial review of psychiatric and

                rehabilitation cases;


                emphasis , when evaluating PRO performance, on the
                PROs' activities in educating providers and

                practi tioners, particularly those in rural areas
                about PRO review and criteria;


                demonstration proj ects for the instruction and
                oversight of rural physicians , in lieu of imposing

                sanctions , through video telecommunications
                between Medicare teaching hospitals and rural

                hospitals ;
                entitlement of a provider or practitioner located

                in a rural heal th manpower shortage area , or in a

                county with a population of less than 70 000, to
                an administrative law judge hearing prior to being

                excluded from the Medicare program , to determine

                whether the provider or practitioner poses a

                serious risk to his or her patients.


                a report to Congress to include an assessment of

                the sanction due process reforms agreed to by HHS 


                the American Medical Association, and the American

                Association of Retired Persons , as well as

                physician and provider responses to the improved

                procedures and an assessment of the appropriate

                balance between procedural fairness and the need

                for ensuring quality medical care.
Source:   Conqressional Record--House , December 21, 1987.
                                                 APPENDIX VII


                            SUMRY OF                  PRO-RELATED STUDIES
Because the PRO program is vital to the Medicare program and

exists within a highly visible political arena, several entities
have evaluated the program. The following is a summary of some
key studies related to the PROs:
     Past Studies


The Congressional Research Service (CRS):

          "The Peer Review Organization Program " October 23,
          1987: The  study presented a summary of the legislative
          history, program features , and relevant issues of the

          PRO program. The CRS report was prepared at the

          request of the House Committee on Energy and Commerce 


          Subcommi ttee onHealth and the Environment. It revised
          a prior report prepared at the request of the Senate

          Committee on Finance.
The General Accounting Office (GAO):

          "Strategies for Assessing Medicare Health Care

          Quality, " December 30, 1987: The study evaluated the
          systems for assessing quality of care in the Medicare

          program (i. e., carriers, ' intermediaries , and PROs) and
          identified short- and long-term strategies for measur­

          ing and monitoring quality of        Among other             care.
          suggestions , the GAO recommended that HCFA: review the
          PROs' methods for dealing with quality issues; evaluate

          the spheres of responsibilities of the PROs , FIs , and

          carriers to determine that their responsibilities are

          appropriately divided; requir the PROs, FIs, and

          carriers to maintain data related to quality; require

          that patient diagnoses be recorded on Medicare out­

          patient Part B claims and develop HCFA data files of

          that Part B information; and develop a mechanism to

          allow SuperPRO to evaluate PRO cases that were selected

          through both the PROs' random sample and specific

          samples of hospital records.


          "Better Controls Needed for Peer Review Organizations

          Evaluations  " October 8,        The study assessed       1987:
          HCFA' s evaluation process for the 1986-88 contract
          awards and concluded that HCFA' s process was fraught

          with inconsistent and inadequate documentation and

          improper application of instructions. Al though GAO
          found no evidence of inappropriate contract decisions

          it recommended that HCFA develop sufficient internal

          controls for PRO evaluation, provide better ongoing

                       ,"



          moni toring to the PROs , and collect and use adequate
          cost and performance data to set each PRO' s contract

          funding level.
          "Reviews of Quality of Care at Participating

          Hospi tals   September 15 , 1986: The study was based

          on a survey of California , Florida , and Georgia PROs,

          and focused on the monitoring of inappropriate dis-

          charges and profiling of hospital and physician quality

          of care problems. The GAO recommended that HCFA
          require PROs to include quality of care review data

          available from the 1984-86 contract period in their

          profiling of hospitals and physicians and that the PROs

          review the appropriateness of the discharge

          destinations as part of their discharge reviews to

          better ensure that patients needing skilled nursing

          care are allowed to remain in the hospital while

          awaiting placement.

The Prospective Payment Assessment Commission (ProPAC):

          "Report and Recommendations to the Secretary, u. S.
          Department of Health and Human Services " April 1

          1986: ProPAC , which is an independent commission

          established by Congress to analyze and recommend

          changes in the prospective payment system , recommended

          in its second annual report that better information

          about PPS be provided to beneficiaries , hospitals , and

          physicians.  Pro PAC also recommended that PRO review be
          extended to the overall episode of care , including

          skilled nursing facilities, home health care , and

          outpatient surgery.

The Rand Corporation:
          Kathleen N. Lohr , "Peer Review Organization: Quality
          Assurance in Medicare " July 1985:    study focused on
          the first scope of work for PROs' review of qual i ty
          during the first 2 years of PPS.    Rand recommended that
          the quality objectives in the 1984-86 PRO contracts be

          broadened . to include the use of generic screens and
          that quality review be given greater weight in the PRO

          review activities. Rand also recommended that the

          PROs' quality review be extended beyond the hospital to

          include the Medicare beneficiary' s entire episode of

          care.
     Current and Future Studies bv the GAO


          The Financial Integrity Act Group at GAO is currently

          reviewing the internal controls for payments by

          Medicare intermediaries. As part of that study, the

          group is assessing the effectiveness of the SuperPRO

          a control mechanism for PRO performance. A draft

          report is expected  soon. (Herb Dantzler--Project
          Leader)
          At the request of the Senate Aging Committee , the

          Program Evaluation and Methodology Division (PEMD) is

          exploring how outcome data can be. used to monitor
          quality of care.  That study will include a review of
          how PROs use available data in their profiling of

          providers. A final draft is  expected ' by mid-June
          1988.  (Eric Peterson--Team Leader)

          At the request of the House Ways and Means Committee,
          the PEMD has designed a study to evaluate the PROs'
          handling of quality of care   issues.Preliminary
          descr ipti ve findings are expected in 1 ate   1988.
          (Jill Bernstein--Team   Leader)
          The Human Resources Division (HRD) , is undertaking a

          brief review of two aspects of the PRO program:
          analysis of the lack of information exchange among

          PROs, Medicare carriers, state Medicaid agencies, and

          State licensure boards , as well as an analysis of OIG

          practices in imposing monetary penal  ties.
          is expected to be issued in the fall of
                                                      The report
                                                   1988.  The HRD
          is also contemplating an evaluation of HCFA' 

           anagement of the PRO program. (steven Fox--project

          Leader)
See appenQix II for a summary of the OIG' s past and current work

related to the PRO program.

                             APPENDIX VIII



                  THE PROS WITH MORE THAN ONE CONTRACT*


                                                     Addi tional
Orqanization Name/Location                        PRO Areas Reviewed

Professional Review Organization.                      Alaska
  for Washington                                       Idaho
Seattle ,   WA

West Virginia Medical   Institute,   Inc.               Delaware
Charleston, WV


Delmarva Foundation for Medical Care        Inc         District of
Easton ,   MD                                           Columbia
Hawaii Medical Services Association                    Guam/American Sa
Honolulu , HI
PEERVIEW , Inc                                         Kentucky
Carmel, IN


Heal th Care Review , Inc.                             Maine
Providence , RI
Iowa Foundation for Medical Care. .                    Nebraska
West Des Moines, IA


New Hampshire Foundation for Medical Care              Vermont
Dover, NH


Montana-Wyoming Foundation
  Medical Care

                             for.                      Wyoming
Helena ,   MT

*Note: Eight PROs hold two contracts; one PRO holds three        contracts.
                               APPENDIX IX
                           MEMORABLE " PRO- ISMS"


We appreciated the candor and thoughtfulness with which

individuals responded to our      questions. In
                                              an effort to share
more of . those diverse opinions than could be integrated into the
main body of this report, we offer the following examples of

memorable opinions we heard that were related to the PRO program

(i. , "PRO-isms"
Regarding the PROs' effectiveness:

     "This program stands almost alone as the buffer (against
     poor medical care) for the American public" (from a PRO

     medical director).


      "We' re spinning our wheels, we' re not moving forward"    (from
      a PRO CEO).


      "I wish that I could tell you how effective (the PROs)     are,
      but I don 't know" (from a congressional staff person) 


Regarding HCFA' s evaluation methods:


      "There' s a lot more to a PRO than not getting a chart done
      in 30 days" (from a PRO staff member).

      "They (HCFA) are starting to do some things right" (from a
      PRO staff member) 


       They' re looking at numbers and numbers only" (from a PRO
      staff member) 


Regarding factors constraining PRO       performance:
      "Some (PRO) responsibilities are exercises in futility"
      (from a PRO CEO).


      "The government is like a monstrous behemoth with its legs

      mired in the swamp" (a PRO medical director).

Regarding the length of the PRO-contract       period:
      "It'    s 4 years for the President" (from a PRO CEO).

      "Give us time to get a little bit better (seated) in the

      saddle. "
For other "PRo-isms" related to the PROs' sanction and quality

review activities , see our previous two reports on those

subj ects .
                                   APPENDIX X

                                    TABLE 1
              PERCEPTIONS OF PRO EFFECTIVENES S BY CASE STUDY SITE
CASE          HOW        NUBER OF RESPONDENTS    NOTING EFFECTIVENESS LEVEL
STUDY      EFFECTIVE    PRO   PRO Staff   HCFA   Hosp.   Medical Licensure
SITE                    CEO   & Board            Ass     Society Board
        VERY
        MODERATELY

        VERY
        MODERATELY
        MINIMALLY
        DO NOT KNOW


        VERY
        MODERATELY
        MINIMALLY
        DO NOT KNOW

        VERY
        MODERATELY
        MINIMALLY
        DO NOT KNOW


        VERY
        MODERATELY
        MINIMALLY

        VERY
        MODERATELY
        MINIMALLY

        VERY
        MODERATELY

        VERY
        MODERATELY

        VERY
        MODERATELY
        MINIMALLY
        DO NOT KNOW

        VERY                                                       NOT
        MODERATELY                                                 AVAILABLE
        MINIMALLY
        DO NOT KNOW


        VERY
        MODERATELY
        MINIMALLY
        NOT
        DO NOT KNOW


        VERY
        MODERATELY
        DO NOT KNOW

                                    APPENDIX X

                                     TABLE 2
             SUPERPRO - PRO DISAGREEMENT RATES FOR FIRST FOUR CYCLES

                    CYCLE   RAGE               SIZE OF     AVERAGE
                            DIFFERENCES (1)    RAGE      DIFFERENCE (2)
DRG CHANGES                         - 20.        16.        10.
                                      17.        11. 3      11. 5
                            1. 3      16.        15.
                            1. 3      14.        13.
ADMISSION                   -9.      - 23.       33.
REFERRLS (3)                -1. 8    - 25.       27.
                            -2.      - 20.       22.
                            -8.        15.       24.
NECESSITY                   1. 8      15.        14.
DENIALS                               16.        11.
                            1. 9      16.        14.
                            1. 9                 23.
QUALITY                     -1. 5 -              20.
PROBLEMS                    -3.        11. 7     14.
                            -2.                              1. 0
                             o. Q      11. 2     11.
PREMATURE                   -1. 0
DISCHARGES    (4)
1: Range of differences between the percentage of problems.
found by a PRO and SuperPRO when reviewing same cases.
Negative values mean PRO found more problems than SuperPRO.
2: Average difference in percentage of problems found
by PROs and by SuperPRO when reviewing same cases.
3: Percent of cases referred to physician for further review.
4: Data available only for cycle
                                         APPP;DIX
                                           TABLE 3
                   REVIEW DETERMINATIONS FOR                    CASE STUDY SITES

                DRG               ADMISSIONS           NECESSITY        QUALITY       PREY.A TURE
CASE            CHAGES             REFERRLS              DENIALS'       PROBLEMS      CISCHAGE
STUDY           PRO DIFF             PRO DI FF           PRO DIFF       PRO D1:FF      PRO DI FF
SITE    CYCLE
                                  21. B     -5.        1.0            14.             1.0
                          13. B   21. 6                    13.
                                  19.                  1.0                   -0.
                                  19.       -0.
                          11.8    12.                                                       1. 7

                          12.                                          1.6
                          11.9
                          10.               12.                10.     1.6
                                            10.       21.

                 3. B                        B. 3



                                                                       1.5
                          10.     15.                                         2 . O


                                  15.       -0.
                          11.4
                          13.     15.                                 1.3
                          10.      7..
                 :2. B
   12.                          1. 0
                                             7. B
                          10. B              () . 2
                 2. B     14.                         :2 . 3

                          14.      8. B     12.       1.9                                   1.4
                          14.     11.1
                          11.
                                             1.3
                          22.     15.
                          17.              16.                 12.
                          16.              14.
                          14.              10.
                          11.4    13.      11.
                                   1.3     17.                 11.
                                           11.1                10.
                                           13.                 10.
                          14.
                          16.
                12.               12.
                          12.
                                  12.        1.8       1.6
                 1. 3     11.1    10.                           "1.
                                            11.
                           7. B                        :2.     10.
All numbers are percentages. PRO: Percent of problems found by PRO.
DIFF: Difference bet een percent of problems found by SuperPRO and PRO.
A necative value means the PRO found more problems than SuperPRO.
* PROs seen as at least moderately effe tive by all respondents groups.

                                   APPENDIX X

                                     TABLE 4
             COMPARISON OF THE PERCEPTIONS OF THE EFFECTIVENESS OF

              SUPERPRO .AND PROMPTS IN EVALUATING PRO PERFORMNCE

RESPONDENT       EVALUATION          PERCENT NOTING HOW EFFECTIVE

GROUP            TOOL         Very   Moderately Minimally   Not Don't Kn 01:

PRO              PROMPTs
CEOs             SuperPRO

PRO              PROMPTs
Staff            SuperPRO

HCFA Regional    PROMPTs
Office           SuperPRO

HCFA Central     PROMPTs
Off ice          SuperPRO

Total for All    PROMPTs
Respondents      SuperPRO
                               APPENDIX XI
                          METHODOLOGICAL NOTES

Summary of Interviews


Because we wanted to examine how both the PROs and HCFA viewed

themselves and were viewed by others, we conducted in-depth

(approximately two-hour) interviews with a variety of people

associated with the program. Those 211 individuals included the
following:
             PRO chief executive officers (i. e. , all PRO CEOs , as 8
             of the 44 PROs manage 2 PRO areas and 1 PRO manages

             areas;
             other PRO staff and board members    (i. e.,the medical
             directors , program directors , rev iew directors , board
             chairs , and consumer representatives from the 12    PROs
             selected for case study site visits) ;

             national external enti ty representatives (i. e. , the
             American Association of Retired Persons , the American

             Hospital Association , the American Medical Association,

             the American Medical Peer Review Association , and the

             Public citizen Health Research Group as well as the

             Department of Health and Human Services, Executive

             Office of Management and Budget, and congressional
             committee staff);


             local external entity representatives (i. e. , state
             medical societies , medical licensure boards , hospital
             associations , fiscal intermediaries , and the American
             Association of Retired Persons chapters associated with

             the 12 PROs selected for case study site visits) ;

             Heal th Care Financing Administration (HCFA) central

             office staff (i. e., from the Health Standards and
             Quality Review Bureau , the Office of Management and

             Budget , and the Bureau of Program Operations); and
          HCFA regional office staff (i. e. , all 10 Associate
          Regional Administrators for Health Standards and

          Quali ty, all 10 branch chiefs , and a sample of the

          proj ect officers in the Medical Review Branch) .
Case Study Selection
In an effort to gain a firsthand perspective on the PROs'
operations , we made 3- to 4-day site visits to at least 1 PRO
from each of the 10 HCFA geographic regions. As part of that

case study effort , we planned to compare those case study
assessments to HCFA' s PRO-specific evaluation documents (i. e. ,
     PROMPTS and SuperPRO) for the second scope of work. Hence , we

     eliminated those PROs with a November 1, 1987 contract start date

     (i. e. , Group 5 PROs) from the case study selection pool since we
     would be unable to obtain their corresponding HCFA evaluation

     documents in time for review. We also eliminated the Pennsyl­

     vania PRO from the selection pool since its second contract

     period began only on July 1, 1987.

     We then drew a judgmental sample of the PROs that was based on

     the following criteria:       size
                                     (as reflected by funding level),
     geographic location , and sanction activity level. We divided the
     PROs into four groups according to their Medicare contract awards

     ($2. 9 million or less, $3-5. 9 million, $6-8. 9 million, and $9
     million or more) and calculated the appropriate number of PROs to

     select from each funding category. That selection of particular

     PROs focused on ensuring a group of' PRO sites with a distribution
     of geographic areas (i. e. , at least one PRO from each of the 10
     HCFA regions) and of sanction activity levels and with at least

     some representation of PROs that had both Medicare and Medicaid

     contracts.
     The final group of 12 organizations selected for site visits in

     the 10 HCFA regions were as follows:
HCFA Reqion         PRO Area                   Orqanization
                  Massachuset ts          Massachusetts Peer Review

                                          Organization ,       Inc.
                                          Waltham ,    MA

                  Rhode Island            Heal th Care Review , Inc.

                                          Prov idence , RI


                  New York                Empire state Medical, Scientific anj

                                          Educational Foundation, Inc.
                                          Lake Success, NY

                  Delaware                West Virginia Medical
                                          Insti tute ,      Inc.
                                          Charleston, WV

                  Florida                 Professional Foundation for Health
                                          Care, Inc.
                                          Tampa , FL
                  Georg ia                Georgia Medical Care Foundation

                                          Atlanta, GA

HCFA Re   ion   PRO Area            Orqanization
                Indiana             PEERVIEW , Inc.
                                    Carmel ,IN

                Texas               Texas Medical Foundation
                                    Austin, TX
                Iowa                Iowa Foundation for Medical Care
                                    West Des Moines , IA
                Colorado            Colorado Foundation for
                                    Medical Care
                                    Denver, CO
                California          California Medical Review , Inc.
                                    San Francisco ,   CA
                Oregon              Oregon Medical Professional Review
                                    Organization
                                    Portland, OR
    In the case study selection process , we opted to choose PROs

    according to their individual contracts with HCFA , rather than

    combining multiple contracts held by one PRO for different PRO

    areas. We chose Delaware as a PRO site to visit , although the

    West Virginia PRO actually holds the contract for Delaware.
    Hence , we refer to the West Virginia PRO in listing the case
    study PROs but note parenthetically that discussions focused on

    the Delaware contract. On the other hand , our site visit to the

    Rhode Island PRO focused on its operation in that state , although

    the Rhode Island PRO also holds the PRO contract for Maine.
    Discussion Guides


    We designed seven separate but interrelated discussion guides to

    capture the perspectives of PRO executive directors , national

    external entities , other PRO board and staff, local external

    enti ties and HCFA central and regional office    staff.The
    discussion guide questions were structured so that we could later

    compare responses within and across groups. All discussion

    guides grouped questions under three or four      categories:
                                                                PRO
    assessment , quality review and sanctions , HCFA oversight, and in
    some cases  , descriptive material. The discussion guides included
    about equal numbers of closed and open- ended questions , but most

    of the closed questions had an open-ended probe following them.

    Interview Approach


    We conducted approximately half the 211 interviews by phone and

    the other half in     person.
                               For methodological consistency, we
    chose to interview all 44 PRO chief executive officers (CEOs) by

    telephone and held subsequent additional on-site interviews with

those CEOs associated with the 12 case study PRO   sites.
addi tion to the 12 case study PRO sites , we conducted on- site
rather than telephone interviews with most of the national and

local external entities and with HCFA central office   staff.
The primary PRO inspection team consisted of four individuals

from Region I who conducted 95 percent of the telephone inter­

views and 80 percent of the on-site  ones. Four additional field
team members (two from Region I and two from OAI' s central
office) conducted the other interviews. At least two team
members participated in each of the 12 PRO case study site

visits.  Inspection interviews ranged up to five hours with an
average length of two hours. We informed all participants

interviewed for this study that the confidentiality of their

specific responses to questions would be maintained , unless

otherwise cleared by them.
As part of our quality control plan, the project leader assigned

one person to be the proj ect ' s administrative coordinator. That
individual developed and maintained a tracking system for all

discussion guides , correspondence , supplementary materials , and a

master schedule of team interviews.
Codinq and Anal vsis
We designed three primary and six relational data files , using

dBASE III PLUS, to store and tabulate interview responses. We

developed codes for all questions and one team member usually

coded all questions in a given file to maximize coding

consistency. In  addition, a different team member checked at
least a 20 percent random sample of the files to ensure accuracy.
As part of the PRO inspection team' s qual i ty control plan , the
project leader assigned one team member to be the project' s data

coordinator. In  addition to having primary responsibility for
designing the PRO data base, that individual was also responsible

for developing and enforcing data- related quality control

procedures.
We used dBASE III PLUS to tabulate all interview data by respon­

dent group (i. e., PRO CEOs , other PRO staff and board, HCFA,
national external entities , and local external entities).


Other PRO-Related Data


In addition to interview data, we collected and analyzed other

PRO- related data including HCFA' s monthly and quarterly data
summary reports for all PROs and HCFA' s PROMPTS and SuperPRO

reports for the 12 PRO case study  sites.   Because complete and
accurate sanction data was unavailable from HCFA, the team used

information provided by the OIG' s Office of Investigations as a

basis for its sanction data analysis. The team classified rural

and urban sanctions according to whether the particular

physician' s address fell within a Standard Metropolitan
                                                        , "





statistical Area (SMSA) as defined by the U. S. Bureau of Census.

Information on the numbers of rural and urban physicians for 1985

was provided by the Public Health Service , Bureau of Health

Professions.  Information on the number of physicians eligible
for Medicare reimbursement as of January
from HCFA, Bureau of Program Operations.
                                           1,1987' was obtained

We also collected and reviewed a wide array of other materials

concerning PROs, including newspaper and journal articles

congressional hearings , and GAO , Library of Congress , OIG , and

other studies and audits.
Methodoloqical Considerations in Intercretinq PRO Interview Data


The reader should keep three caveats in mind when reviewing this

report.  First, because we wanted to give as comprehensive a view
of ?ROs as possible , we have integrated the case study data with

the universal data. The case study data is generally used to

amplify broader-based findings , and such data is always clearly
labeled.  Although we used a judgmental rather than randQm
sampling methodology for choosing the case study sites , it is

worth noting that those sites are broadly representative of PROs

by size, geographic location , and sanction activity level.


A second caveat to keep in mind is that although we interviewed a

total of 211 individuals , a given question may have been directed

to only a subset of that  universe.  Therefore, in this report , we
have sought to clarify the number of people responding to a given

question by noting the universe of respondents (N=     ) in all

relevant summary tables and figures.

The third but perhaps most important consideration to highlight

is that much of the information gathered in this study came fro

questions with both closed and open-ended parts (e. g.  Do you
have any recommendations to the Federal Government regarding

actions it might take that would help PROs be more effective in

addressing quality of care issues?" Explain.    Because we chose

not to distribute the discussion guides prior to the interviews

the open-ended questions required the respondent to spontaneously

formulate his or her answers. Therefore, the percentages of
people noting any particular answer vary much more than if the

respondents had been presented with limited response options or

had reviewed the discussion guides prior to the interviews.
                             APPENDIX XII

                         COMMENTS ON THE DRAFT

                        REPORT AND OIG RESPONSE

                            TO THE COMMENTS

Within the Department of Health and Human Services we received

comments on the draft report from the Health Care Financing

Administration (HCFA) and the Assistant Secretary of Planning and
Evaluation (ASPE). In addition, we received comments from the
American Hospital Association (AH). In the sections that
follow , we offer these comments , in full , and our response to
them.
AS PE COMMENTS

Thank you for the opportunity to review the draft report entitled

"The utilization and Quality Control Peer Review organization

(PRO) Program: An Exploration of Program Effectiveness.

primary concern is that the document , a though well-written and

informative , needs to be expanded to incorporate more information
on the third scope of work (1988-1990). Specifically:

          Page one of the report states that the study

          focused on "the implications of the changes in the

          PROs' scope of work from the first to second

          contract period.   Since the report also discusses

          changes from the second to third contract period

          this should be referenced in the Introduction.


          The last sentence on page 18 states that "HCFA is

          planning to reduce the PROs' reporting require­

          ments in the third contract cycle.   Some detail

          should be included on the nature of these changes.
          How will the contract cycle compare to the 

          reports required in the second cycle, 90 percent

          of which are submitted either monthly or

          quarterly.
          Appendices III, IV and V contain summaries and
          comparisons of the first and second scopes of

          work.  These appendices should be expanded to
          include information on the third scope of work as

          well, particularly given that the body of the

          report includes discussion of third round require­

          ments (e.g.   , pp. 24-25).
Finally, I have one minor suggestion with respect to the format

of the report. Pages iv through vii of the executive summary

list recommendations made by the OIG. Pages 29 through 32 of the
report reiterate the same recommendations. Rather than repeat
the same recommendations verbatim, I recommend that they be put

in the body of the report and then just summarized in the

executive summary.


OIG RESPONSE


The comments for further information on the third scope of work

and or HCFA changes concerning reporting requirements are well

taken.  In part, these are reflected in HCFA' s comments. More
detailed explanation, we think , is best offered in other forums.
This report essentially focused on the second scope of work.
AHA COMMENTS


The following are the American Hospital Association (AH)
comments on OIG draft report entitled "The utilization and

Quality Control Peer Review Organization (PRO) Program: 

Exploration of Program Effectiveness.


EXECUTIVE SUMY
My only comment is with the statement on page iii pertaining to

PRO data reporting. The statement reads "However, HCFA has

recently taken steps to strengthen its data analysis capability

and is planning to reduce the PROs' reporting requirements in the

third contract cycle.    Based on my review of the PRO data

chapter and in conversations with PRO data staff, it would appear

that HCFA is increasing the PROs data requirements (i. e. in­
clusion of provider and beneficiary identifiers, and information

pertaining to generic quality screens).       atement describing
HCFA' s expectations as a result of strengthening the PRO data
capabilities would be helpful.


GENERAL COMMENTS


In general, the study was informative and easy to follow. The

findings and recommendations presented in the study were quite

accurate. The appendices provided useful background information

about the PRO program. It would be helpful to the reader if some

of the key requirements of the third scope of work could be

incl uded in the report.
OIG RESPONSE


Our response to the ASPE comments also appl ies to the 

comments above. Addi tional , detailed explanations concerning

HCFA' s expectations and the third scope of work would provide
helpful context to our report, but we feel are best provided by

HCFA in other forums.
HCFA COMMENTS

We have reviewed the draft report on the effectiveness of the PRO

program and we have two general comments:

             We are concerned that the findings are listed in

             the report as having been identified by the OIG.
             In fact , they were identified by HCFA and the

             recommendations , for the most part , were already
             under consideration by HCFA and were discussed

             with OIG staff during the inspection. We raised
             this concern in our comments on the OIG' s draft
             report on Quality review Activities (the second in

             this series of reviews).


             Although the methodology for the review and its

             conclusion appear valid, the findings are. based
             questions presented to PRO representatives and

             other groups associated with the PROs. The
             validity and reliability are suspect.    Questions
             used in the survey were ambiguous and in some

             instances the analysis of the responses were not

             defined.   For example, what definition or standard
             of " effectiveness" was used in presenting
             questions or evaluating responses? Are effective
             review acti vi ties those that result in a high

             number of denials , generate significant problem

             savings   identify substantial quality of care

             problems or meet some other undelineated

             cri terion? In addition , there is no examination
             of variables such as familiarity with the system,
             philosophy of medical review , and association with

             HCFA and the PROs for each category of respondent.
Our response to the specific recommendations, as well as other

general comments , are attached for your consideration. We have
addressed the recommendations in- the order in which they appear
on pages iv through vii of the report.

OIG Recommendation


Improve coordination and integration of its evaluation tools

(PROMPTS-2, SuperPRO and PRO data reports) to ensure

comprehensive assessments of PRO performance. This might
incl ude 


                  synchronizing the PROMPTS-2 review with the

                  due dates of SuperPRO reports; and

                 incorporating SuperPRO results into the

                 PROMPTS-2 document along with data from PRO

                 reports to maximize the comprehensiveness of

                 the evaluation.

HCFA COMMENTS


During the second Scope of Work, the PROMPTS-2 was designed

primarily as a PRO monitoring and performance tracking system.
HCFA employs a broad based PRO evaluation process that reviews a

variety of indicators , including PROMPTS-2.


We do not feel that PROMPTS-2 should be evaluated separately from

the corrective action plan (CAP) process. The combination of
PROMPTS-2 and the CAPs process is keyed to compliance with

contract requirements and the specifics of the PRO' s own contract

proposal. We are not surprised that the PRO' s interviewed would

characterize HCFA' s insistence on contract compliance as " process
oriented. " We would expect the OIG to rej ect such a
characterization of the routine monitoring that is prudently

required with large , fixed- price federal contracts.
Finally, the SuperPRO contract for the third Scope of work will

be recompeted and we are giving serious consideration to in­

tegrating SuperPRO findings with the PROMPTS-2.
OIG Recommendation


Encourage consistency and objectivity in PRO renewal decisions

by:
                 establishing rating standards for PROMPTS-2 and

                 for acceptable ranges of variance for SuperPRO.
                 formally informing the PROs, regional office staff

                 and review panel members of the weights to be

                 assigned SuperPRO, HMO/CMP , cost/savings ratio

                 factors; and


                 establishing a standing evaluation panel of HCFA

                 regional and central office staff to review

                 regional recommendations. Participation by PRO

                 staff before closed session action would permit

                 discussion of mutual questions and concerns.

HCFA COMMENTS


HCFA' s criteria for contract renewal have always been:

             strict contract compliance;

             appropriate medical review determinations; and

             a fair price.

The final evaluation for contracts under the second Scope of . Work
takes into consideration regional office review and recommenda­

tions.  The PROs and regional offices were formally notified as
to what constitutes acceptable performance. We use evaluation
panels to review regional office renewal recommendations to

assure that performance standards are applied consistently on a

national basis and to assure that all PROs are treated equally

and fairly. As mentioned previously, we are developing SuperPRO

standards and are currently planning the integration of SuperPRO

and PROMPTS-2 during the next contract cycle.
As required by statute, HCFA will publish its evaluation criteria

for the next contract cycle and will consider all comments

received .
OIG Recommendation


Re-examine the purpose for and validity of the SuperPRO review

process.  This assessment should address such issues as:
                 whether SuperPRO is intended to complement

                 PROMPTS-2 medical review or to duplicate  it;
                 whether SuperPRO is intended to complement

                 PROMPTS-2 review decisions. If so, whether

                 its sample size , criteria and record selec­

                 tion process permit valid comparison; and


                 whether there are better ways to use SuperPRO

                 expertise, such as having SuperPRO perform

                 onsi te review and provide technical assis­

                 tance to those PROs most consistently

                 differing from SuperPRO in their review

                 decisions or by having SuperPRO assess what

                 types of quality problems are being iden­

                 tified- by PROs.


HCFA COMMENTS


As discussed with OIG staff during the inspection, HCFA has

already recognized the existence of significant variation in

SuperPRO disagreement rates. We responded by establishing a

system of rereviews of disagreements by regional and central

office medical staff and consultant physicians.


SuperPRO was originally intended as an educational tool for PROs

to identify and correct areas of performance where deficiencies

exist.  The regional offices use SuperPRO results to monitor PRO
performance and establish CAPs. SuperPRO does not use local
physicians and would not necessarily apply local practice

patterns. If  we have SuperPRO " make " the PROs conform to
national standards , the whole concept of local peer review would

be lost.
As previously mentioned , we are reevaluating the SuperPRO process

and are planning the incorporation of SuperPRO findings into the

PROMPTS-2. While the report does not explain whether onsi 

review would occur at the PRO or at the health care facility, we

believe that having SuperPRO go onsite would decrease the

effectiveness and objectivity of SuperPRO review and would not be

cost-effective.
OIG Recommendation
Create forums for SuperPRO, HCFA and PRO discussions.


HCFA COMMENTS


HCFA already maintains active liaison with the American Medical

Peer Review Association (AMPRA) , the industry group that

represents the PRO contractors. HCFA and AMPRA representatives

meet on a regular basis to provide an effective exchange of

information. In addition , HCFA representatives attend various

regional and topical meetings sponsored by AMPRA.

We conduct annual meetings with PRO Executive Directors and

Medical Directors and routinely convene ad hoc industry task

force groups Mhen we need to implement new legislation/policy

(e. g., industry on HHA, SNF , hospital outpatient review , etc.

Finally, we are considering the development of a regular forum of

PRO , SuperPRO and regional office staff to consider SuperPRO
issues.
OIG Recommendation
Examine ways to streamline the SuperPRO process to minimize the

administrative burden on PROs and to maximize its utility to

HCFA , such as:

                  reducing the sample size for small PROs;
                  revising the schedule for reporting results

                  to reduce time lag between PROMPTS-2 and

                  SuperPRO reviews; and


                  facilitating closer interactions between PRO

                  and SuperPRO reviewers in resolving

                  PRO/SuperPRO differences.


HCFA COMMENTS


In preparation of the new Scope of Work for the next SuperPRO

contract, we are considering changes to the SuperPRO model.
                            ?" ;





Areas currently under consideration     include:
                                               refinement of
sampling methodology; flexibility with respect to sample size,
especially for smaller PROs; continued analysis of SuperPRO data;
and effective ways to use SuperPRO findings , including

integration with PROMPTS-2.


We are also considering having the regional offices act as the

final authority to resolve disagreements between PROs and

SuperPRO.
OIG Recommendation
Improve the PROMPTS-2 process by


            developing standards for judging the manner of PRO

            performance, i. e. , "Are
                                    PRO/provider relationships
            effective. . . , "Is thePRO successfully tracking
            problems. . .
            establishing standards for rating " yes/no"
            acceptability of overall activity category based

            on number of " yes/no" ratings of subcategories;
            and
            developing more outcome measures of PRO

            effectiveness through research and demonstrations.

HCFA COMMENTS


The evaluation of peer review , like peer review itself, can never

be totally objective. HCFA has responded to criticisms of the

first PROMPTS by making the PROMPTS-2 easier to complete,
including " yes/no" answers where appropriate, and by taking steps
to develop computer assisted analyses of PROMPTS-2 results.
Ultimately, we believe that the effectiveness or success of the

PRO, or the impact of subcategory ratings on category ratings , is

best determined by the professional judgment and expertise of

HCFA central and regional office staff. HCFA has emphasized

regional office training, regional and central office communica­

tion, as well as the participation of senior HCFA management in

evaluation decisions to ensure national consistency. PROMPTS-2
like the original PROMPTS protocol , is currently being reexamined

based on regional office experience. HCFA is always open to

suggestions that will simplify the completion of the PROMPTS , but

still allow HCFA to take advantage of the considered judgment of

regional office    staff.
As we discussed in detail under our response to the long-term

planning recommendation and have previously discussed with OIG

personnel, we have already initiated pilot studies and research

efforts to develop outcome measures of PRO effectiveness.

OIG Recommendation


Develop and release comparative PRO performance data to the PROs

and other interested parties.


HCFA COMMENTS

We currently release PRO data reports on a regular basis and will

continue to do so. We are also considering the development and

release of other PRO performance data reports.
OIG Recommendation
Develop and distribute requirements, instructions , and pol icies
in a more timely manner to allow sufficient lead time for PRO

implementation.
HCFA COMMENTS

We recognize that there have been problems in this area in the

past. We have already implemented procedures whereby PROs are

given sufficient lead time (at least 30 days) prior to implemen­

tat ion of rev ised contract requirements.
In addition, OBRA 87 requires that we publish in the 
         Federal
Reqister any new policy or procedure that affects the performance
of contract obligations at least 30 days before the policy or

procedure becomes                          effective. It
                                 also requires that contract
modifications requiring funding for these activities are

negotiated prior to implementation.
OIG Recommendation


Improve the consistency in policy interpretation among PROs and

HCFA staff by updating the PRO Manual on an on- going basis and by

providing training and orientation sessions for both PROs and

regional staff as needed.


HCFA COMMENTS


We agree that revisions to the PRO manual must be issued on a

more timely basis. We have improved our performance in this area

and will continue to do                                  so.
                             We also note that the third Scope of
Work is considerably more detailed and should greatly assist PROs

in the conduct of their contractual obligations. In addition,
HCFA has emphasized PRO/regional office training to ensure

national consistency. We have made improvements by having at

least annual meetings to train regional office staff who in turn

train the PROs. We also participate at AMPRA conferences and

hold an annual conference for PRO executives.
OIG Recommendation


Review the current roles of carriers , fiscal intermediaries (FIs)
and PROs to assess the appropriateness of the current

distribution of responsibilities and assess the coordination of

these entities , such as the timel iness of FI adj ustments.

HCFA COMMENTS

There have been a variety of problems with the FI/PRO interface.
In the current Scope of Work , the actual communications problems

which existed in the first Scope of Work were corrected. The
problems which exist with the processing of adjustments have been

identified and analyzed. HCFA has established a joint effort,
with representatives from the regional offices , FIs and PROs,

which will provide a plan for correcting problem areas.
OIG Recommendation


Strengthen long-range planning of future directions and

appropriate roles for the PRO program by:
          increasing the emphasis on research and demonstra­

          tions in such areas as review methodologies,

          patient outcome and severity measures and data

          system requirements;
          exploring mechanisms to encourage PRO

          innovations and reduce the prescriptive

          nature of the current review requirements;

          exploring better long-term ways of

          structuring PROs' activities so they are cost-

          effective and complement the efforts of other

          review entities such as state medical licensure

          boards and hospital quality assurance committees.

          For instance, HCFA might explore the possibility

          of having SuperPRO responsiple for making DRG

          determinations and have the PROs focus on quality

          review; and


          establishing an advisory group of PRO and other

          relevant entity representatives to provide input

          to HCFA on long-range planning issues.
HCFA COMMENTS


We believe that long-range planning has been strengthened. As 

advised OIG staff, we believe that is important for the PROs to

become involved in long-range planning  efforts. In fact , several
efforts already are underway. As part of their medical review

eight PROs are currently engaged in a special collection of

clinical data which will be linked with Medicare data on out­

comes. This data will be used to assess the impact of interven­
tions in six areas-- coronary revascularization , cholecystectomy,

prostatectomy, myocardial infarctions , heart failure and pul­

monary disease--on mortal i   ty, morbidity, disabil i ty and cost.
HCFA also has developed and begun testing a method for collecting

clinical data from PROs which can be linked to claims      data.
                                                             The
clinical information will lead to the development of a Uniform

Clinical Data set which will assist in the collection of the key

data elements necessary for effectiveness     research.
                                                     This will
result in HCFA having the capability to measure patient outcomes

and, as a result, better evaluate the impact of peer review

direct future review activities and guarantee more effective PRO

review.
Also ,as cited elsewhere in the OIG report, HCFA will be
conducting a number of pilot studies at the PROs directed at

developing methodologies in a number of areas including the

review of both utilization and quality of physician services.
Finally, we are giving serious consideration to establishing

appropriate technical advisory groups to complement our other

industry liaison efforts.
It must be noted that much of PRO review is legislatively

mandated. Also ,  if we were to allow greater flexibility to the
PROs , we would have even more complaints about consistency State-
to-state in both the types of reviews and the overall level of

review , and the resulting data would not be comparable. We do
not believe that having SuperPRO conduct DRG determinations would

be cost-effective and it could have negative program results. We

wOuld have to pay for duplicating records for PROs (where
applicable) as well as SuperPRO on a much larger basis and this

would negate all our efforts for increased onsi te review. Also

it is a much lower burden to have the PRO do the DRG validation

while it is already reviewing the medical record than to pay both

the PRO and SuperPRO to review the entire record.
GENERAL COMMENTS ON THE REPORT


Page 9


The least " useful" reviews listed are probably dependent on how

the question was phrased and the respondent' s idea of what the

question meant. We have deleted percutaneous lithotripsy revie
as we found it non-effective (i.    , generated few denials or

changes in DRGs). Conversely, the Medicare Code Editor review is
the most effective review we have, with a large admission denial
rate and a large amount of coding changes. The number of cases

however , is very small , thus not leading to a large amount of
savings in the aggregate.

Page 10


The OIG indicates that outlier review and assistants at cataract

surgery review are not " effective.   In addition , OIG states that
several PROs complained about extending review of readmissions to

those occurring within 30  days.  The OIG points out that HCFA
should reassess the need for these reviews. The HCFA did not

administratively decide to have PROs perform these reviews; these

are legislatively mandated reviews.
Page 12


Last paragraph, line 9 , we assume should be " physician
referrals, not   admission referrals.
In th first paragraph OIG lists five activities which are

considered least effective but does not cite whether these "least

effective" activities are , in fact , ineffective (based upon data)
or whether this is a conception based on misinformation on the

part of the respondents.   Also, in the last sentence of this
paragraph, the OIG states that in the third Scope of Work we

require PROs to choose from a list of 10 procedures determined by

HCFA. Instead , we require the PROs to choose 8 from a list of 11
(2 additional ones are mandated for review). In addition , we do

allow the PRO to " go outside the list" if it furnishes data to

support the choices (s) .

Page 25


The first full paragraph , last sentence, states that we are

mandating review of 9 more DRGs without establishing the value of

review.  Seven of those codes are newborn codes and amount to 100
cases nationally. In analyzing the data, these cases are not

truly "newborn" cases, and HCFA sees the need to " clean-up" the
data (since Medicare does not pay for newborns)

Page 26


In paragraph 3, the OIG states that virtually all division

director jobs changed in HSQB. Since the study was of the PRO
program only, we assume the reference is to the two division

director jobs in the Office of Program Review. At the time of

the study, one Division Director retired and the other was

promoted to Deputy Office Director.
Page 27


The first full paragraph discusses the fact that HCFA has not

implemented the 100 percent review and opinion portions of COBRA.
The 100 percent review will be implemented in the third Scope of

Work as will the preadmission review of 10 procedures. We are
already in the process of issuing implementing regulations for

full 100 percent review and the second opinion requirements.


Page 39


Bullet 5 is not accurate. PROs   report on short stays separately
but do not do any extra   review. (We have made this comment
before. )
Page 52


In bullet 4, the last sentence should be deleted. The MOUs were
implemented on October 1,  1987. This is not one of the
provisions to be implemented with the Scope of Work.
OIG RESPONSE


We are concerned with the general thrust of HCFA' s response.
First, we must disagree with HCFA' s assertion that the findings

in the report were identified by HCFA rather. than the OIG. The
findings are the result of an intensive , broadly based inquiry

involving many sources outside of as well as within HCFA. If, 

a general level, the OIG' s findings tend to parallel observations

and conclusions already reached by HCFA, they still, quite

properly, are presented as OIG   findings. Moreover, as is
apparent in the report and in HCFA' s response to it , the OIG and

HCFA have a number of differences with respect to many of the

specifics underlying the general findings and many of the

implications flowing from them.

Second , we must emphasize that because a particular line of
action is under consideration in HCFA does not necessarily mean

it will be enacted or that an OIG recommendation in concert with

it is inappropriate. We did have discussions with HCFA staff

about the possible implications of our findings. At the time,

those discussions seemed to reflect a good deal of agreement on

the kind of actions that ought to be taken. In those instances
where HCFA had already initiated action at the time our report

was written, we strove to provide that information in the report

itself.
Third ,we must express concern about HCFA' s observation that the
 validity and reliability" of the findings " are suspect" and that

the questions used in the survey were " ambiguous.   We carefully
explained our methodology in the report. The information in the

report is limited , but represents the perspective of a carefully

selected sample of respondents who are directly involved with the

PRO program at various levels. We believe that their

observations and opinions represent valuable feedback on the

performance of the PRO program. We feel it is important for the

Department to take into account the accumulated, operational

wisdom that underlies this feedback.
With respect to the recommendations, we are concerned that HCFA

did not convey a more posi ti ve response to our suggestions
concerning the refinement and integration of evaluation
                                                          tools.
We feel that improvement in this area is vi tal to the continued

improved performance of the PRO program. We are also concerned

that HCFA did not respond to our call for strengthened long-
                                                              range
planning. Our frame of reference in making that recommendation

involved HCFA i tsel f ,   not the indi vidual PROs. HCFA'
focused more narrowly on the PROs.
                                                             s   response
